<html>
<title> - THE ONGOING TRAGEDY OF INTERNATIONAL SLAVERY AND HUMAN TRAFFICKING: AN OVERVIEW</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





THE ONGOING TRAGEDY OF INTERNATIONAL SLAVERY AND HUMAN TRAFFICKING: AN 
                                OVERVIEW

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2003

                               __________

                           Serial No. 108-137

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

93-282              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 29, 2003.................................     1
Statement of:
    Miller, John, Director, Office to Monitor and Combat 
      Trafficking in Persons, U.S. Department of State; and Kent 
      Hill, Assistant Administrator, U.S. Agency for 
      International Development..................................    15
    Raymond, Janice, co-executive director, Coalition Against 
      Trafficking in Women; Andrew Johnson, Save the Children 
      Federation; Sharon Cohn, director, Anti-Trafficking, 
      International Justice Mission; Mohamed Mattar, co-director 
      of the protection project, Johns Hopkins University School 
      of Advanced International Studies; and Kevin Bales, 
      president, Free the Slaves.................................    57
Letters, statements, etc., submitted for the record by:
    Bales, Kevin, president, Free the Slaves, prepared statement 
      of.........................................................   113
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     5
    Cohn, Sharon, director, Anti-Trafficking, International 
      Justice Mission, prepared statement of.....................    77
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   123
    Hill, Kent, Assistant Administrator, U.S. Agency for 
      International Development, prepared statement of...........    26
    Johnson, Andrew, Save the Children Federation, prepared 
      statement of...............................................    69
    Mattar, Mohamed, co-director of the protection project, Johns 
      Hopkins University School of Advanced International 
      Studies, prepared statement of.............................    85
    Miller, John, Director, Office to Monitor and Combat 
      Trafficking in Persons, U.S. Department of State:
        Prepared statement of....................................    18
        Uzbekistan memo..........................................    54
    Raymond, Janice, co-executive director, Coalition Against 
      Trafficking in Women, prepared statement of................    60
    Smith, Hon. Christopher H., a Representative in Congress from 
      the State of New Jersey, prepared statement of.............    11

 
THE ONGOING TRAGEDY OF INTERNATIONAL SLAVERY AND HUMAN TRAFFICKING: AN 
                                OVERVIEW

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 2003

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton, Watson, Shays, and Smith.
    Staff present: Mark Walker, chief of staff; Mindi Walker 
and Brian Fauls, professional staff members; Nick Mutton, press 
secretary; Danielle Perraut, clerk; Richard Butcher, minority 
professional staff member; Earley Green, minority chief clerk; 
and Cecelia Morton, minority office manager.
    Mr. Burton. Good afternoon. A quorum being present, and we 
will have other Members coming in periodically, the 
Subcommittee on Human Rights and Wellness will come to order.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record and without 
objection, so ordered. I ask unanimous consent that all 
articles and extraneous or tabular material referred to be 
included in the record and without objection, so ordered.
    I ask unanimous consent that Congressmen Smith, Wolf, and 
Pitts, as well as any other Member wishing to serve as a member 
of the subcommittee for today's hearing, be permitted to sit on 
the dais with us and without objection, so ordered.
    The subcommittee is convening today to examine the 
atrocious practices of human trafficking and slavery around the 
world. It is hard to believe in the 21st century that we are 
even talking about this.
    Although many people believe that slavery and human 
trafficking are no longer a major problem, it is estimated that 
more than 27 million cases of human trafficking occur every 
year--27 million. This figure represents the highest 
concentration of slaves in the entire history of mankind. You 
would not believe that in the 21st century, would you?
    Human slavery and trafficking is a worldwide crisis that 
affects 116 countries, including many industrialized and 
developed nations like the United Kingdom and Australia. No 
country is immune from these illegal practices. However, every 
nation needs to put into place strong measures to deter and 
prevent these crimes against humanity.
    Sadly, human slavery and trafficking are booming businesses 
in the 21st century. According to figures released by the U.S. 
Department of State, it is estimated that human slaves 
contribute over $13 billion every year to the global economy, 
$7 billion of which is a direct result of the illicit sex trade 
alone.
    You know, we ought to have cameras and the media and 
everybody in here listening to this, because it is not a widely 
known fact that this is going on. Yet, they are probably 
listening to all kinds of other things that sound important, 
which really do not amount of a hill of beans, and here we have 
27 million people that are slaves every year.
    Because of this crime's enormous profitability, 
slaveholders will stop at nothing to traffic as many slaves as 
possible. Slaveholders try and victimize innocent people into 
lifetimes of servitude by preying on the most economically 
disadvantaged members of society.
    These crimes lure hard-working men and woman attempting to 
make a better life for themselves and their loved ones. As soon 
as victims are deprived of the opportunity to return to their 
homes, they are forced into domestic servitude, sweatshop 
labor, prostitution and other types of compulsory labor.
    In addition to the millions of people who are coerced into 
slavery, there are many who spend most of their lives working 
to repay paltry debts at extreme rates of interest. According 
to a National Geographic article from the September 2003 issue 
entitled ``21st Century Slaves,'' two-thirds of the world's 
captive laborers, 15 to 20 million people, are debt slaves in 
places such as India, Bangladesh, and Nepal.
    These indentured servants can spend their whole lifetimes 
repaying debts that amount to as little as $36, because of 
outrageous rates of interest placed on loans; $36 and you are a 
slave for life.
    Sometimes, if the debt is large enough, it could take two 
or three generations of indentured family members to repay the 
loan; and the ever-increasing number of these economically 
disadvantaged individuals has created an even greater surplus 
of potential victims for slaveholders to exploit.
    While the average cost of a slave centuries ago would 
equate to today about $40,000, in today's dollars that same 
slave would sell for around $150. Think about that; it used to 
be $40,000 if you carried that figure and extrapolated it into 
our dollars today, and now it is $150.
    Because laborers are relatively cheap and easy to exploit, 
regard for the slaves' lives has greatly diminished. Slaves are 
being held in the most inhumane of conditions. They are not 
given proper shelter, medical care, or nutrition, in addition 
to being continuously subject to savage beatings.
    In the eyes of modern-day slaveholders, slaves can 
literally be worked to death, because the profits that they 
produce far outweigh the cost of just keeping them alive.
    Currently, the United States has measures in place to help 
combat trafficking in persons. On October 28, 2000, the 
President signed into law the ``Trafficking Victims Protection 
Act of 2000 (Public Law 106-386),'' sponsored by my dear friend 
and colleague, Representative Chris Smith of New Jersey, who 
will be here in a little bit.
    His legislation has been very effective in combating human 
trafficking, and I believe that it is necessary for the House 
and Senate to reauthorize this most important bill as soon as 
possible to keep strong measures in place against human 
trafficking.
    While the United States has enacted comprehensive laws to 
deal with the existing human trafficking situation, many 
countries have laws that are not germane to address the current 
problems associated with these illicit activities.
    More than 154 countries have laws in place that minimally 
target trafficking by prohibiting the procurement of women and 
children for purposes of prostitution and forced labor. 
Unfortunately, most of these laws do not address modern-day 
trafficking concerns, and are not thoroughly enforced due to 
the lack of proper funding and up-to-date training of law 
enforcement officials.
    In an effort to assist in combating human trafficking on an 
international scale, the United States has provided financial 
and training assistance to less-developed countries that do not 
currently have the means to deter human trafficking violations.
    During fiscal year 2001 and 2002, the United States 
appropriated over $100 million for global anti-trafficking 
initiatives in over 50 countries to assist in the prevention 
and protection of trafficking victims, and to support and train 
international law enforcement officials.
    My former colleague, the Honorable John Miller, who 
represented the First District of Washington from 1985 to 1993 
and is currently the Director of the State Department Office to 
Monitor and Combat Trafficking in Persons, is here to talk with 
us today about his recent travels to observe firsthand the 
trafficking crisis going on in the world today.
    He will be joined by the Honorable Kent Hill, an Assistant 
Administrator at the U.S. Agency for International Development, 
who will also testify on the human slavery in the 21st century 
and the U.S. Government's efforts to put an end to human 
slavery and trafficking practices around the globe.
    In addition to our Government witnesses, the subcommittee 
will also hear today from several experts in various form of 
trafficking and slavery. They are here to assist us in gaining 
a better understanding into the current human trafficking 
crisis, and how best to counteract these crimes on a global 
level. I look forward to hearing their testimony.
    Let me just say once again that I just left the 
International Relations Committee down the hall. We were 
talking about Pakistan and the terrorist threat, and what 
Pakistan and other countries are doing to fight it.
    That is very important, because terrorism is a horrible 
thing. We saw 3,000 people killed in one terrorist incident 
here in the United States, the worst attack on American 
citizens in the history of our country, and that is terrible. 
It is really terrible.
    But 27 million people a year around the world are becoming 
slaves, and not one camera is in this room. It is amazing to 
me. Well, it is just human beings? What the heck? Twenty-seven 
million--we ought to all be outraged. We ought to be raising 
holy hell with those countries that are allowing this to go on, 
and who are not doing anything about it.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.001
    
    [GRAPHIC] [TIFF OMITTED] T3282.002
    
    [GRAPHIC] [TIFF OMITTED] T3282.003
    
    Mr. Burton. With that, let me just say, it is nice to see 
my colleague Chris here with us today. Do you have an opening 
statement you would like to make?
    Mr. Shays. I do not have a written statement, Mr. Chairman. 
I just want to thank our witnesses, and I want to thank you for 
holding this hearing.
    I was a little concerned that there may not be many people 
at this hearing, because somehow, for some reason, it really 
has not caught the imagination of the American people. When the 
President talked about this issue in the United Nations, it was 
viewed as almost a distraction, and it struck me as an 
astounding thing to say.
    So this hearing kind of reminds me of the hearings I had on 
my National Security Subcommittee before September 11th. We did 
not have a lot of people focused on them and we had 22 
hearings. There was hardly anyone from the press.
    But it is an issue that ultimately, I think, the President 
will help others to understand; and the people helping him like 
John and others and Kent will help the American people and the 
world understand. This is a huge issue, and the United States 
is going to play a role in it, whether or not the French give 
us permission.
    Mr. Burton. Thank you very much; I really appreciate it, 
Mr. Shays.
    Ms. Watson has joined us. Would you like to make an opening 
statement, Ms. Watson?
    Ms. Watson. I certainly would. Thank you, Mr. Chairman.
    According to the latest U.S. Government estimates, over 
800,000 to 900,000 people worldwide are trafficked across 
borders each year for forced labor or sexual exploitation. 
Although men are also victimized, the overwhelming majority of 
those trafficked are women and children.
    Disturbingly enough, trafficking in people for 
prostitution, domestic servitude and forced labor is an 
increasing area of international criminal activity. The reasons 
for the increase in trafficking are many. In general, the 
criminal business feeds on poverty, despair, war, crisis, and 
ignorance.
    Trafficking is considered one of the largest sources of 
profits for organized crime, generating $7 billion to $10 
billion annually, according to the United Nations' estimates. 
The largest number of victims are annually trafficked from Asia 
and the Pacific Region according to our U.S. Department of 
State.
    The growth of sex tourism in this region is one of the main 
contributing factors. Large-scale child prostitution occurs in 
many countries. Thailand, Cambodia, and the Philippines are 
popular travel destinations for sex tourists, including 
pedophiles from Europe, North America, Japan, and Australia.
    The former Soviet Union may be the largest new source of 
trafficking for prostitution and the sex industry. Other main 
source regions include Latin America, the Caribbean and Africa. 
Trafficking in children for labor is a serious African problem 
in Togo and Benin, as well as in Botswana, Zaire, Somalia, 
Ethiopia, Zambia, Nigeria, and Algeria. Victims are taken to 
Nigeria, Gabon, Ghana, and South Africa.
    Africans, especially women from Nigeria, are trafficked to 
Western Europe and the Middle East, and the victims usually end 
up in large cities, vacation and tourist areas, or near 
military bases, where the demand is the highest.
    Mr. Chairman, as you know, Congress passed the Victims of 
Trafficking and Violence Protection Act of 2000, which 
strengthens many provisions of law dealing with trafficking in 
persons for sexual and other exploitation. The International 
Relations Committee has amended the act this year again; 
however, the main emphasis of the act is to report on and 
eliminate trafficking in foreign countries.
    As we move forward with today's hearing, Mr. Chairman, on 
modern day slavery, I want to ensure that we discuss the 
prevalence of slavery and the trafficking problem occurring 
through various regions of the world. I hope we also include in 
this discussion the trafficking and forced labor that is 
occurring today, right here in these United States.
    One example of these violations of human rights and U.S. 
law has been occurring in my own State, California. Border 
patrol agents in California have an overwhelming task in 
identifying illegal aliens and stemming their migration. 
Organized criminals are challenging law enforcement officials 
to meet the demand of poor Latinos and those who would exploit 
them.
    There are many human rights abuses occurring after being 
successfully smuggled across the border. Criminals know that an 
illegal alien is in a tenuous predicament that can be taken 
advantage of.
    An example of violations has been occurring in the 
agricultural fields; not only in my own State of California, 
but in Florida. On a positive note, a Florida organization 
called the Coalition of Immokalee Workers has been heralded for 
their world to address modern-day slavery. Together, they have 
helped liberate over 1,000 workers held against their will by 
employers using violence, in terms of beatings and pistol 
whippings, shootings, and the threat of violence.
    Their efforts, in cooperation with the U.S. Department of 
Justice, has successfully helped prosecute and put trafficking 
organizations and employers who use these tactics to suppress 
immigrant farm workers behind bars.
    So, Mr. Chairman, I look forward to today's testimony; and 
I am very concerned about where we are today, in terms of this 
trafficking and human rights violations.
    I support the efforts of this subcommittee to probe into 
this issue. I want to commend you for staying on it. You have 
been characterized by your persistence and your commitment. 
Again, this is another demonstration of that, and I yield back 
my time to you, Mr. Chairman.
    Mr. Burton. Thank you very much; I would like to clarify 
one thing. Ms. Watson is absolutely correct. It is 800,000 to 
900,000 new slaves per year, but the total is 27 million; and 
27 million is just unconscionable.
    Mr. Smith has just joined us. Mr. Smith, do you have an 
opening statement you would like to make?
    Mr. Smith. First of all, I want to thank the chairman for 
having this very important hearing. I would ask that my full 
statement be made a part of the record.
    Mr. Burton. Without objection.
    Mr. Smith. You know, I would say to Mr. Burton and he knows 
this, we sit next to each other on the International Relations 
Committee and work side-by-side on so many human rights issues, 
and this is one of them. This one certainly is at the top.
    I want to thank John Miller, who is doing an absolutely 
splendid job as head of the TIP Office. He has brought a sense 
of mission, a sense of that ``fire in the belly'' that this 
egregious practice, this modern-day slavery, has to stop, and 
we can take the lead in doing that. I want to thank John for 
his work. He works at it 24/7 and is doing a great job.
    As you know, Mr. Chairman, our bill, the next increment, 
the next updating and reforming, hopefully will be on the floor 
before we go out of session for this particular session on the 
108th Congress; that is to say, within the next 2 weeks or so.
    We have been given an assurance by the leadership, and that 
is a comprehensive updating, fixing some of the glitches, some 
of that which we missed the first time around. Hopefully, it 
will give more tools and more appropriate and expanded tools to 
the TIP Office, to the State Department, and to all aspects.
    Let me also just briefly say, President Bush, I think, 
deserved high credit. Not only did he try to rally the member 
states at the United Nations so effectively during his speech 
there several weeks ago; he has done so much that has never 
gotten any kind of coverage the way it ought to.
    I was called by a reporter from the New York Times and a 
Post reporter. It was like, why is he doing this? I said, well, 
frankly, he has been doing it for some time. It has been 
largely ignored or not noticed the way it ought to be.
    His zero tolerance policy, the work that we have done as a 
country in South Korea, trying to mitigate the complicity, 
wittingly or unwittingly, of our military with those who have 
been coerced into prostitution in South Korea; part two of 
that, which is now going on the Balkans, to ensure that peace-
keepers and deployments of police are absolutely on the side of 
protection, not on the side of complicity with trafficking; 
that is all coming out of the White House, the State Department 
and, of course, John Miller's fine office. So I think he really 
ought to get high marks for the work he has done.
    When we first proposed this bill, and it was a bipartisan 
bill, as you know, Mr. Burton, you were part of it; Sam 
Gejdenson from Connecticut, and many of us who pushed that so 
hard--we were met with disbelief, almost derision, even by some 
who should have been our allies.
    It took 2 years to get that bill passed. It finally was 
signed into law, and now it is being implemented, I think, 
effectively; but, of course, we can do more.
    So, again, I want to thank you for this opportunity to join 
you at this very important hearing.
    [The prepared statement of Hon. Christopher H. Smith 
follows:]

[GRAPHIC] [TIFF OMITTED] T3282.004

[GRAPHIC] [TIFF OMITTED] T3282.005

[GRAPHIC] [TIFF OMITTED] T3282.006

[GRAPHIC] [TIFF OMITTED] T3282.007

    Mr. Burton. Well, we appreciate your holding hearings on 
this, also, in your Human Rights Subcommittee on International 
Relations.
    Mr. Miller, Mr. Kent, would you please rise, so we can 
swear you in. That is a common practice we have here.
    [Witnesses sworn.]
    Mr. Burton. John, you do that so well. It is like you have 
done that before.
    We will recognize you, Mr. Miller.

   STATEMENTS OF JOHN MILLER, DIRECTOR-OFFICE TO MONITOR AND 
 COMBAT TRAFFICKING IN PERSONS, U.S. DEPARTMENT OF STATE; AND 
      KENT HILL, ASSISTANT ADMINISTRATOR, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Miller. Chairman Burton, Congresswoman Watson, 
Congressman Shays, Congressman Smith, thank you for your kind 
words. But Mr. Chairman, I want to thank you for holding this 
hearing and spotlighting what is the emerging human rights 
issue of the 21st century.
    When I served with you 10 or 12 years ago, there were many 
human rights issues; but I would have to say, this was not at 
the top of the agenda then. But we are recognizing that it 
belongs just there.
    You have a fine panel of witnesses: Kevin Bales, Mohamed 
Mattar, Janice Raymond, Andrew Johnson, Sharon Cole, my 
colleague, Kent Hill. They are all leaders in this struggle.
    Now I was going to talk about the statistics, the laws, the 
reports we put out, and I will talk a little about that at the 
end. But I want most of my testimony to focus on the victims.
    I did come back from a tour around the world, and I want to 
just give you three stories of victims. Because the statistics 
are important, but we are fighting for individual bodies and 
souls.
    Let me start off with the story of Sasha, whom I met in the 
Netherlands. Sasha is around 30 now. She is from the Czech 
Republic. She had a terrible marriage 10 years ago in the Czech 
Republic. Her husband beat her. She had a 2-year-old daughter.
    A so-called friend of the family said, oh, you can leave, 
go to the Netherlands, make money waiting on restaurants, get 
enough money to bring your daughter there. He brought her to a 
Czech trafficker.
    The Czech trafficker drove her and three other Czech woman 
to the Netherlands and met a Dutch trafficker. They took them 
to the Amsterdam red light district to a brothel and said, this 
is where you are going to go to work.
    Sasha said, no, this is not what I was told. I will not do 
this. They said, yes, you will, if you want your 2-year-old 
daughter back in the Czech Republic to live, and she did for 
many, many months to pay off her alleged debts, and then to get 
money to bring her daughter.
    Finally, she brought her daughter. Instead of servicing 10 
or 11 men a day, it was 13 or 14 men a day. Then she gets her 
daughter there, and she goes to ``work'' in the night, and in 
the day, she comes back and she gets her daughter ready for 
school. She sleeps, brings her daughter back, and Sasha is in 
despair. She is thinking of killing her daughter and committing 
suicide.
    A miracle happened. She happened to be in a taxi 1 day. The 
taxi driver was nice and friendly. She blurted it all out. The 
taxi driver said, I am going to help.
    He did not go to the police. He organized a gang of young 
toughs. They went and confronted the two traffickers. They 
said, hand her over. The traffickers said, we will for $20,000 
Euros.
    They said, no, or you will feel the pain. They handed her 
over on condition she not identify her traffickers. Here she 
is, years later. She is still in a daze when she tells me this 
story. She is now working a hospital, studying social work.
    This shows that even in a so-called advanced country like 
the Netherlands, there can be extensive and pernicious slavery.
    Second story, Thailand, in a shelter, I meet a teenage 
girl, Lured. She was taken from a Laotian village, promised a 
job, a better life; taken to Bangkok, put in an embroidery 
factory, sold, forced to work 12 to 14 hours a day. It was 
terrible conditions, no wages at all.
    She rebels. She is beaten as an example to the other girls. 
She rebels some more. They put her in a small room. The owner's 
son fires a BB gun into her cheek. They dump industrial 
chemicals on her.
    She, like Sasha, is one of the lucky ones. With the 
cooperation of NGO's, there is a raid, an escape. Sasha still 
has the blotches, the scars on her. She is getting counseling, 
plastic surgery. There was a well-publicized prosecution 
brought against the factory owner.
    She is learning skills now. I hope she will recover. Again, 
not from nearby; she came from another country, all the way to 
Bangkok.
    The last victim's story is Sema, who I met at St. 
Catherine's shelter, outside Bombay, India. Sema was brought 
from a rural village in India by her stepmother and her uncle 
to the Bombay red light district, to a brothel.
    While they negotiated downstairs with the brothel owner, 
and she could hear them, Sema was taken upstairs and raped. By 
the way, the price, ultimately, was $300, and of course, she 
was raped and raped and raped and raped.
    Sema, again, was one of the ``lucky ones.'' There is a 
raid. She ends up at this wonderful shelter, run by this NGO, 
St. Catherine's. The NGO's have taken the lead on this. There 
are so many wonderful shelters, particularly run by faith-based 
groups. Sister Busha is caring for her, nurturing her, and 
finally gets Sema to the point where sema goes with some honest 
police, back to the village, fingers the stepmother and the 
uncle and they are in jail.
    Again, Sema is not from another country. But notice, the 
slave is rarely from the location where the slavery has taken 
place; from a foreign country like Sasha, or in Sema's case, 
from a distant province. That is the pattern. That is what is 
happening.
    Slavery extends into every country in the world. Maybe 
there is some island paradise that I am not aware of that does 
not have it. But as far as I know, it goes into every country 
in the world.
    Now I do not want to leave you completely on a negative 
note. I want to tell you briefly some good things that have 
happened, and they have happened, in part, because of the 
legislation that you in Congress passed several years ago.
    You asked the State Department to evaluate other countries. 
You asked for an evaluation of the United States. It was done 
by the Justice Department. This year, you provided the threat, 
the possibility of sanctions.
    In the couple of months before our report came out in June, 
this report where we evaluated 120 countries--we still have not 
gotten them all--but the good news is, because of that law that 
you passed, and because of the engagement of our embassies, and 
because of the threat of sanctions, and because of the 
programs, in the 2 or 3 months before that report came out, 
countries around the world did more on this than I believe they 
had done in several years before.
    From the Philippines to Haiti to Burkina Faso, anti-
trafficking laws were passed. There were massive arrests of 
traffickers from Serbia to Cambodia.
    Then after the report came out, and we had several 
countries listed at the bottom in Tier 3, they were worried 
that President Bush would impose sanctions. They had 3 months 
to shape up. We prepared plans, steps that you must do, if you 
want to get off the terrible Tier 3.
    Some of these countries were our friends and allies, like 
Greece and Turkey. But the interesting thing is, that in 3 
months, some of these countries ran public service 
announcements, had their Foreign Ministers go on TV and address 
the nation. They set up law enforcement training courses to 
sensitize their law enforcement. They set up screening and 
referral procedures for victims, started distributing money to 
NGO's for shelters. They moved to have more arrests.
    So we were able to say, well, at least for now, you are 
making some significant effort, but this has to continue. We 
have to keep the pressure on. Congress has to keep the pressure 
on. The NGO's have to keep the pressure on, if we are going to 
make progress toward the ultimate goal, which must be the 
abolition of slavery in the world.
    Thank you for your time.
    [The prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.008
    
    [GRAPHIC] [TIFF OMITTED] T3282.009
    
    [GRAPHIC] [TIFF OMITTED] T3282.010
    
    [GRAPHIC] [TIFF OMITTED] T3282.011
    
    Mr. Burton. Thank you. That was one of the most vivid bits 
of testimony that I have heard before our committee in a long 
time. I just wish everybody in the whole country could hear 
that.
    Congressman Smith, in this bill which we supported and I 
thought was very important, I had no idea that there were the 
number of people that were in slavery in the world, that we 
found out just recently. So you are to be commended for your 
hard work, and we appreciate your being here to talk to us 
today.
    Mr. Smith. Well, when I went around the world, I do not 
know how many times NGO representatives, Mr. Chairman, came up 
to me, even Government officials--the Government officials may 
have denounced the report in public. But they would come up and 
say, thank goodness you are doing this. If you did not take the 
lead, who would?
    Mr. Burton. Well, if we can get just a few of these people 
out of slavery, it is worth the effort. But hopefully, we will 
get them all, eventually.
    Dr. Hill.
    Mr. Hill. Mr. Chairman and members of the subcommittee, 
Congressman Smith, it is good to be with you again.
    It is ironic, but it was in the 1980's and early 1990's 
that John Miller and I and Congressman Smith were engaged in a 
very different campaign. It had to do with religious freedom 
and human rights in the Soviet Union, and there has been 
remarkable change since that time.
    Who would have ever thought these years later, we would be 
back together, often dealing with that same part of the world? 
Because there is no part of the world where the percentage of 
the population that is being trafficked is greater. It is a 
different kind of human rights abuse than we ever thought would 
exist, but it is what we face at the present time.
    I am honored to be here and have the opportunity to 
followup on the very vivid and wonderful stories that John 
Miller has told that put a human face on this, because without 
the human face it really does not make much sense.
    But this really is an extraordinary tale of the sale and 
exploitation of human beings, and it is global in character. It 
is not just women or men or children. All of them are 
trafficked for forced labor, but a substantial part, as has 
been noted, are the children and are the women.
    In any circumstance, the traffickers breed on the poverty 
and the powerlessness of the victims, and the greed and the 
immorality of the perpetrators. This sale and this exploitation 
of human beings is often dominated by criminal networks. Human 
trafficking is highly profitable and a relatively low risk 
activity for the criminals involved.
    Like other criminal activities, it thrives within and 
contributes to conditions of official corruption and weak law 
enforcement. But here is the part that we have often forgotten. 
Trafficking is both a supply and a demand-driven industry. The 
persistent demand for cheap labor and increasingly created 
demand for services of prostitutes and child pornography 
through the Internet feed the trafficking industry.
    At USAID, we believe that both the conditions that lead to 
a supply of individuals who are vulnerable to traffickers and 
the attitudes of those waiting to exploit those victims 
sexually or economically must be addressed.
    We see prostitution as inherently degrading to those who 
are sexually exploited, and as a factor in fueling the trade in 
humans. Thus, we completely oppose the legalization or 
normalization of prostitution as a legitimate activity. To take 
any other position provides traffickers with an open door to 
trade and exploit the most vulnerable members of the human 
family.
    USAID began to mount anti-trafficking efforts in a few 
countries in the late 1990's. The agency now has a worldwide 
effort with activities in about 40 countries. USAID has made 
steady progress increasing the volume and the geographic 
coverage of its anti-trafficking assistance.
    Obligations in 2001 reached $6.7 million. By 2002, they had 
risen to $10.7 million; and this year, we expect to obligate 
over $15 million.
    The broad range of USAID development assistance programs 
reinforces the agency's direct anti-trafficking efforts by 
helping to reduce vulnerability to trafficking through 
activities that reduce poverty, strengthen governance and rule 
of law, decreasing conflict, increasing economic opportunities 
for woman and men, and increasing girls' access to quality 
education.
    Let me say something about the USAID policies with respect 
to how we do this work. In February 2003, USAID released its 
anti-trafficking program statement and a strategy for response, 
and I think you have a copy of this.
    I want to underline some of the principles that are in this 
document. First, anti-trafficking activities are focused on 
prevention of trafficking, protection of victims, and 
prosecution of those who are involved; the so-called three 
``Ps.''
    Development efforts that support and reinforce direct anti-
trafficking activities, girls' education, reduction of violence 
against women, the promotion of their rights, poverty 
reduction, administration of justice, and refugee assistance 
all have to be a part of that strategy.
    Partnerships with organizations, whether they are domestic 
NGO's, international NGO's, or other countries must be a part 
of what we are doing to fight these victims of prostitution and 
trafficking.
    The strategy specifies how USAID will implement its 
activities through partnerships. In keeping with the 
administration's position that prostitution is degrading to 
women, USAID's strategy states, ``Organizations advocating 
prostitution as an employment choice, or which advocate or 
support the legalization of prostitution are not appropriate 
partners for USAID anti-trafficking grants or contracts. 
Missions will avoid contracting or assistance agreement with 
such organizations that are primary or sub-grantees or 
contractors.''
    Recognizing that USAID staff or contractors may come in 
contact from to time to time with individuals who have been 
trafficked whom they cannot and should not ignore, the strategy 
goes on to state, ``In the course of their development work, 
especially with diseases and HIV/AIDS and programs like that, 
USAID staff and primary grantees, sub-grantees, contractors, 
and sub-contractors may become aware of such individuals who 
have been trafficked for sexual exploitation. When this occurs, 
USAID staff or grantees or contractors should report this 
information to the United States embassy officer who handles 
trafficking.''
    Now let me just give you a few quick, selected activities, 
examples of the work we do to try to deal with the kinds of 
people that John Miller talked about. I would refer you to the 
written testimony, which contains considerably more detail; but 
let me just give you a couple of examples.
    In Ukraine, we have a trafficking prevention project, which 
addresses two key factors: the vulnerability of Ukrainian women 
to trafficking, and thus, it deals with economic opportunities 
and it deals with violence against women. There are seven 
regional centers throughout Ukraine that deal with this.
    We also, when I first got here, helped put together a film 
with movie stars that were recognized in Ukraine, which 
dramatized the stories of Sasha and others, and that 
communicates sometimes better than can any kind of brochure 
with statistics on it.
    In the Democratic Republic of Congo, rebel forces and 
militia will sometimes traffic young children and make them 
into soldiers and combatants. A lot of our work in some of 
these countries, Uganda, Congo, etc., has to do with rescuing 
these young people, and once we find them, trying to help 
rehabilitate them.
    In Sudan, this is a problem, where there are abductions, 
and we try to document and collect information on the 
trafficking routes and on the abductions, and try to have 
public awareness campaigns to try to put a stop to this.
    You know, one of the largest source countries for 
trafficking victims in the Western Hemisphere is the Dominican 
Republic. The USAID mission in the Dominican Republic is 
supporting implementation of new anti-trafficking legislation 
by training Justice Sector personnel and other government 
officials on how to deal with this problem.
    Brazil is another serious problem, and we work there with 
all these same strategies, and I could go on through the other 
countries, as well.
    But let me just say this in conclusion. USAID's commitment 
to fight all forms of trafficking in persons is deep and long-
term. Yet, I would be less than honest if I did not tell you 
that the challenges ahead are very great, indeed.
    As I have said, this is not only a very lucrative task for 
criminals to be involved in, but it is still one that they do 
not feel much pressure to stop.
    We must be just as agile in shifting our strategies for 
continually cutting the ground out from underneath these 
criminals, as they are in shifting strategies to continue to 
deal in human misery.
    As President George W. Bush put it on September 23rd before 
the United Nations General Assembly, ``The trade in human 
beings for any purpose must not be allowed to thrive in our 
time.''
    USAID is committed to playing its part in effectively 
combating the evil of trafficking in persons. Our success 
ultimately will be measured by the assistance in healing that 
we provide to the victims; but maybe more importantly and 
ultimately to the hundreds of thousands we hope to prevent from 
ever suffering the horrible degradation that accompanies this 
modern-day slavery, which is trafficking. Thank you.
    [The prepared statement of Mr. Hill follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.012
    
    [GRAPHIC] [TIFF OMITTED] T3282.013
    
    [GRAPHIC] [TIFF OMITTED] T3282.014
    
    [GRAPHIC] [TIFF OMITTED] T3282.015
    
    [GRAPHIC] [TIFF OMITTED] T3282.016
    
    [GRAPHIC] [TIFF OMITTED] T3282.017
    
    [GRAPHIC] [TIFF OMITTED] T3282.018
    
    [GRAPHIC] [TIFF OMITTED] T3282.019
    
    [GRAPHIC] [TIFF OMITTED] T3282.020
    
    [GRAPHIC] [TIFF OMITTED] T3282.021
    
    [GRAPHIC] [TIFF OMITTED] T3282.022
    
    [GRAPHIC] [TIFF OMITTED] T3282.023
    
    [GRAPHIC] [TIFF OMITTED] T3282.024
    
    [GRAPHIC] [TIFF OMITTED] T3282.025
    
    [GRAPHIC] [TIFF OMITTED] T3282.026
    
    [GRAPHIC] [TIFF OMITTED] T3282.027
    
    [GRAPHIC] [TIFF OMITTED] T3282.028
    
    [GRAPHIC] [TIFF OMITTED] T3282.029
    
    Mr. Burton. Thank you, Dr. Hill. I just have a couple of 
questions. You know, one of the things that we have been doing 
to try to get Osama Bin Laden and Saddam Hussein is, we have 
offered substantial rewards for them. I understand that if you 
are talking about a worldwide slave problem, you are not going 
to be able to have huge rewards offered.
    But has our Government offered any kind of reward for 
turning in people who are in involved in major slave trading; 
and is that something that we might consider? Because, you 
know, the almighty dollar, or whatever the currency happens to 
be, does carry a pretty good amount of weight. If people who 
know of slave trading knew they could make a little bit of 
money out of it, they might turn some of these people in, which 
might put more onerous on the people who are involved in this. 
So has that ever been considered?
    Mr. Hill. I do not know that it has been considered. I do 
not know that it should not be considered. But I think we are 
also of the opinion that if we did a better job of pricking the 
conscience and raising the awareness of the population in 
general, we also might get much more involvement. But I 
certainly would not rule out considering that as a strategy. It 
does sometimes work.
    Mr. Burton. Well, I would like to think that the conscience 
of humanity would want people to turn in slave traders. But I 
think being realistic, there are people who would do it for 
money, that would not do it because their conscience did not 
dictate that they should get that involved. ``Money talks and 
baloney walks'' is a statement around many parts of Government, 
and I think that is one of the things that we ought to 
consider.
    Chris, when we are talking about legislative proposals, I 
think that is one of the things that we ought to do, to talk 
about our Government. When we appropriate money for this, and I 
think there was $100 million that has been appropriated, maybe 
we should suggest that part of that $100 million be used for 
rewards for people who turn in these people.
    Once you do that, once you start that procedure moving in 
the right direction, it probably would scare some of these 
people that are involved in slave trading.
    Ms. Watson. Would you yield, Mr. Chairman?
    Mr. Burton. Sure.
    Ms. Watson. I think I have a recommendation that if we 
expanded, might be effective. Would we want, in exchange for 
our aid, for them to sign that they will come up with law 
enforcement, in terms of the traffickers, to receive these 
moneys that you give?
    Mr. Burton. Well, I think that is another good idea.
    Ms. Watson. Yes, I just wanted to mention that.
    Mr. Burton. Chris is here. He is the person who has been 
one of the keystones of this. Maybe we should condition our 
foreign aid on governments doing what they can to deal with 
this.
    Mr. Smith. Well, if the gentleman would yield, your comment 
about--right now, if somebody turns in a terrorist, obviously, 
there is a rewards program. This is something we really should 
take a good look at, because I think it has some real merit.
    Right now, we use more of a stick. Although we have carrots 
in there, as well, the stick is that non-humanitarian aid, 
after this 3-year phase in, and this was the year that the 
sanctions regime kicked in.
    I think as Mr. Miller pointed out, never have we seen such 
a focus of mind by these foreign capitals than as the deadline 
for making a determination approaches. Sanctions work. You 
know, the best sanction, like the best military, is the one 
that you do not have to use, because it deterred criminal or 
egregious behavior.
    But it seems to me that we need to get this message out, 
not just in the trafficking area, but in all human rights law, 
and I see David Abramowitz is here, who was worked so closely 
with us on the Democratic side and Sam Gejdenson, who was the 
prime co-sponsor of this bill.
    You know, we ran into a flurry of negatives from people at 
the State Department and elsewhere, who did not want to name 
names, which the report does, and did want to have the 
sanctions regime. We are talking about sanctioning, which 
probably is the wrong word to use, withholding non-humanitarian 
aid to those that engage in Tier 3 type of behavior.
    Mr. Burton. Well, let me just say that I think that is 
good. I think rewards might be another tool that might be used.
    The last thing I would like to mention before I yield to my 
colleague, Ms. Watson, is the Internet. You know, a lot of the 
child pornography in a lot of these countries where they 
provide trips to places like the Philippines, where men go over 
there and they are involved with kids in sexual activities, it 
seems to me that our Government could be involved in some way 
in monitoring, and I know the Internet is a huge thing to deal 
with, but we could do it on a routine basis.
    If we could monitor those sites, I think it would put the 
fear of God into some of these people, if they knew we were 
going to catch them, and that we were going to insist that 
their governments take them to task for being involved in this 
slave trading.
    So I do not know if you are already doing that. You may be. 
But that is just another suggestion that comes to mind: rewards 
and then dealing with the Internet.
    Mr. Miller. They are both suggestions to be considered. It 
is interesting, Mr. Chairman, that you mentioned the Internet 
and the tourism. You are getting at the sex tourism.
    Mr. Burton. Yes.
    Mr. Miller. What really moved the President, in making his 
proposal at the U.N. General Assembly and pledging an 
additional $50 million is, he has been horrified by the sex 
tourism that is going on in this world that is a primary force 
driving child prostitution.
    So he wants, yes, to work on where it is happening. But he 
is aware that there is a demand factor, which is what you are 
getting, where the people are coming from through the Internet 
or whatever. In this coming several months, I hope that our 
office will try to come up with a program to address the demand 
side.
    I visited a village in Thailand where this sex tourism was 
going on. I talked to some of the children, and let me tell 
you, the so-called customers were not Thais. They were wealthy 
people coming from Holland, England, the United States, and 
Japan.
    Mr. Burton. Right, well, anyhow, those are just a few 
suggestions. You probably are way ahead of us on this issue.
    Mr. Miller. They are good.
    Mr. Burton. Mr. Shays, the vice chairman of the committee?
    Mr. Shays. I just would love it if you would just yield to 
me 1 second.
    Mr. Burton. Yes.
    Mr. Shays. I never say when I am leaving, my apologies. I 
have an appointment, and I am going to come back here hopefully 
for the second witnesses.
    But I feel a little guilty leaving before they have spoken, 
because I know they have very important things to say and on 
something so sensitive. I cannot change this appointment. I 
will be back as soon as it is over.
    Mr. Burton. Thank you, Mr. Shays, we appreciate that.
    Ms. Watson.
    Ms. Watson. I know that President Bush has put together a 
Cabinet level inter-agency task force to monitor and to combat 
trafficking. How can the Department of State and Congress 
ensure that these policies are implemented? I will just throw 
that out to whoever can respond.
    Mr. Miller. Well, Congresswoman Watson, there is an inter-
agency task force. It was set up in your legislation. It was 
also set up in the President's Executive order implementing 
that legislation of last December.
    That task force is tentatively scheduled to meet December 
8th. It has the high level representation. My office serves 
that task force; and one of the purposes of that task force, 
and another group that you set up in legislation last March, 
the Senior Policy Operating Group which I chair, is to bring 
people from all these agencies together to make sure that we 
are not duplicating; that we are coordinating; that we are 
speaking with one voice; that we are carrying out policies that 
the Congress and the President have set.
    So that is the task ahead of us. If we fail to do this in 
any way or you find where we are not, I hope you will 
personally call me and let me know.
    Ms. Watson. If I might respond, it seems that we are going 
to have to have a committed buy-in from governments of various 
nations.
    Now the Netherlands has legalized prostitution, and they 
are the Tier 1, and I am sure there are other countries. But a 
lot of the developing countries that have not need to probably 
come at this from a philosophical and conceptual standpoint. 
You know, what do you want for your children in the future, for 
your women, and I am sure there are young boys, as well? So 
would it be possible to go to the U.N. and have a specifically 
structured conference in one of their subcommittees on this 
whole idea of sex trafficking and tourism?
    Mr. Miller. I think it would. I like the idea of focusing 
on the sex tourism. Because I will tell you that we have had a 
lot of conferences in the general area of trafficking, and they 
are good. They have spotlighted the issue, but now we are at a 
point were we have to act.
    So I would want to make sure that if there was a 
conference, it was not just to have everybody get together and 
denounce sex tourism; but to make sure there is a concrete 
agenda and concrete steps that are going to be taken by 
governments to combat this.
    Ms. Watson. Yes, I suspect that there are many nations that 
consider the sex trafficking as part of their economic base and 
really do not want us being proactive or being effective in 
this area.
    So that is why I said we will have to come at it. We have 
to change the way they think about their economic development; 
and we have to help them to change the way they think about the 
treatment of their women and their children.
    Mr. Miller. You are so right, because this starts with 
public awareness.
    Ms. Watson. Right.
    Mr. Miller. I think in this country, if you raise this 
issue, there are probably people that would say, slavery, I 
thought it ended with the American Civil War.
    So, yes, we have to raise public awareness. We have to work 
with governments. You were right; once this gets to the point 
where it is extensive, where it is either legalized, or even if 
it is illegal but tolerated, and it becomes a sector of the 
economy and organized crime is involved, and there is huge 
money involved, that just increases the difficulty of the task.
    Ms. Watson. I think everybody in this room is in accord. We 
just have to be creative with how we go about finding 
solutions. Because it is a problem that has plagued the world 
for as long as man and woman have been in existence.
    In some way, I guess we have to model what we stand for. We 
have pornography all over the Internet now. You just have to 
turn on your TV and see that there are people from every walk 
of life who are practicing in this, and we are talking about 
going global.
    But we really need to start taking some very definite 
steps. I would think that not making foreign aid a condition of 
you signing off, but having people sign off that they will do 
all they can to curtail this practice, I think, is the way to 
go; not holding back humanitarian aid. Because it gets in then 
to something else, and we do not want to deprive people of what 
they really need.
    But I do think that part of awareness could be that they do 
sign a statement that they will come up with a policy over a 
period of time within their country to address this problem.
    Mr. Miller. I think that is another suggestion worth 
considering. The sanctions legislation does not lead to 
prohibiting humanitarian aid. That is excepted.
    Ms. Watson. Yes.
    Mr. Miller. But you are turning it around and putting a 
positive pledge spin on it, and I think that is definitely 
something to be considered.
    Ms. Watson. Thank you very much.
    Mr. Burton. Thank you, Ms. Watson.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I would like to recognize a good friend and former 
colleague, Dick Zimmer, who is with us today, and thank you for 
joining us and for your work on this, as well.
    I would also like to say to Dr. Ken Hill that I remember 
fondly those many years we spend fighting religious bigotry and 
prejudice and discrimination, and his book, ``The Puzzle of the 
Soviet Church'' was a book I read and from which I learned a 
great deal about what was going on in what is now Russia. It 
was then the full Soviet Union. So thank you for your 
outstanding work, as well.
    I do have a couple of questions. Mr. Miller, you might want 
to respond to this. When the President took some 10 countries 
from Tier 2 to Tier 3, you noted and, as a matter of fact, you 
chronicled some of the very significant changes that were made.
    As you pointed out, all of a sudden there was a focus; all 
of a sudden, there was a flurry of activity; good, positive, 
new laws were enacted; crackdowns on brothels and formerly 
trafficked women became liberated women and the traffickers 
held to account.
    My question is--and I would ask that Mr. Miller's 
statement, if you have not done this already, be made a part of 
the record--explaining those 10 countries and why they went 
from Tier 2 to Tier 3, because it is encouraging, but it is 
only the beginning, as we all know.
    My concern is that this be a sustainable pressure. You 
know, we have seen this with many human rights issues and even 
hunger issues. I will never forget, after the first famine in 
Ethiopia, when the second famine rolled around and hundreds of 
thousands of people were dying, it was almost as if, well, did 
we not handle that issue before? People's compassion for that 
fatigue had been spent and they moved on to other things.
    I hope that we do not have that same crescendo of concern 
that is then dissipated through whatever. It seems to me that 
you have some tools at your disposal; one of them being that 
you can issue interim reports, as the need arises, when there 
is a back-sliding in the country.
    I hope our Ambassadors have been encouraged or even 
admonished to say, the pressure is not off. You know, these 
sanctions in Tier 3, a naming or branding can happen at any 
time; and certainly, if there is not sustainable and serious 
progress, it will happen when the next round comes around next 
year.
    We have to convey that, as much as we can, and this 
hearing, I think, helps to do that; that this is not going 
away. We are increasing, rather than decreasing. This is a 
winnable war, just like ending the slave trade and the famous 
William Wilberforce and the others who fought and ended that 
slave trade, because they never gave up. I think we have to 
have that same tenacity. So if you could touch on that, please.
    Second, I would ask Dr. Hill this. We have authorized 
levels in our new bill, and I hope it will be up next week. It 
provides increases in every area, including money that goes to 
aid for shelters and the like.
    Two years ago, I offered an amendment to the appropriations 
bill, to just meet the authorized levels of $30 million that 
was in the Foreign Operations bill with part of that going to 
shelters and overseas efforts to really help the women right 
where they are.
    It passed. It came out of conference down about $8 million; 
and the excuse that was given to me by Flickner, the staff 
director for the Foreign Operations, was that they cannot 
absorb it all. It was conveyed to them from AID that they 
cannot absorb this additional money.
    I said, you know, even if these funds are not obligated 
immediately, they can remain unobligated; and certainly we can 
find sufficient numbers of shelters and programs out there to 
absorb not just $30 million, but much, much more than that.
    Mr. Burton. If the gentleman would yield.
    Mr. Smith. Sure.
    Mr. Burton. You know, we talked about rewards a while ago. 
If they said they could not absorb the extra $8 million, why 
not put that into a fund saying, there is $8 million, and we 
will be giving $10,000 or $15,000 or whatever the amount would 
be, that would induce people to turn in these traffickers?
    It seems to me, that would not require an awful lot of 
effort to figure out a way to spend that. Once people find out 
that there is a fund set up to nail the bad guys, we will get 
some of the bad guys.
    Mr. Smith. I appreciate the comment; the point obviously 
being that when Charlie Flickner and others are telling me that 
is what they can get out of conference because there was 
insufficient absorption capability, I find that extremely 
troubling. I find it to be questionable as to its validity, as 
well. Maybe you want to touch on that.
    You know, we need to be creative. We created this law to 
think outside the box. We did not want to just ascribe money 
already spent to trafficking. We wanted to see some new money 
flowing in to mitigate this problem.
    Third, if I could, I will just take a moment and then 
yield, on the demand side--perhaps, Mr. Miller, you might want 
to touch on the outstanding work that our administration is 
doing to try to reign-in on military deployments, starting with 
South Korea and Bosnia, and efforts that are underway.
    We recently contacted Secretary Armitage to ask that NATO 
adopt such a zero tolerance policy, so that all of the peace-
keepers in the U.N. ought to be doing it, as well. Finally, Mr. 
Miller, on Russia, Ms. Ileana, who has introduced the pending 
legislation--that legislation, to the best of my knowledge, 
still has not passed.
    I met up with her at a parliamentary assembly in Rome just 
3 weeks ago along with Dorothy Taft, our chief of staff, and I 
had a long talk with her. She is running into opposition.
    One of the reasons why I thought Russia went from Tier 3 to 
Tier 2 was the pending matter of that legislation becoming law, 
which would have put them, at least on paper, almost identical 
in terms of where we are, in terms of our law. What are you 
hearing from Russia, if you could touch on that; and maybe Dr. 
Hill can answer that.
    Mr. Miller. OK, I think there were three questions, and two 
for you.
    Mr. Hill. Right.
    Mr. Miller. First, on the pressure on the 10 countries. To 
sustain pressure in a lot of countries, you are absolutely 
right. Of course, you have been a bulldog, Congressman Smith, 
in making sure our Government does sustain pressure.
    I put in front of you, or my staff did, and maybe it did 
not get on your seat--but we put a copy of a letter, and if you 
do not have it we will get it to you--that was sent to the 
Hill. Congressman Pitts was going to distribute it as a ``Dear 
Colleague.''
    He asked for specific steps that were taken by each of 
these countries that we required. So for every country, we have 
listed the specific steps that they took, that justified their 
rising to Tier 2.
    But the question is, are they going to continue? One 
country, and I hate to single one country out, but Greece came 
with a rush at the last minute, the last week. So we provided 
that we are going to do a re-evaluation in 2 months, to make 
sure that all these things you did at the last minute continue. 
We have to do that. There is no question about.
    Yes, go ahead.
    Mr. Burton. I was going to say, would the gentleman yield 
on your time?
    One of the things that just came to mind, and this goes 
along with what Chris was talking about, the IMF and the World 
Bank, have they done anything or used their power in any way to 
deal with the slavery issue?
    Mr. Miller. I am not aware of any action, are you, Kent, of 
the IMF?
    Mr. Hill. IMF and the World Bank, you know, we contribute 
an awful lot to those two funds; and it seems to me that when 
they are granting loans to Third World countries who need the 
money so desperately, one of the conditions ought to be, and 
our members of the IMF and the World Bank should say, that one 
of the conditions for the loans should be that you make a 
concerted effort to deal with the slave trade.
    Mr. Miller. That is a very intriguing idea. I will take 
that idea back with me. I may find that they are doing more 
than I think. But I am not aware of their taking specific 
action.
    Mr. Hill. Where we are exerting pressure is through the EU 
requirement that for accession to the EU, these countries are 
supposed to be doing things in this. This is also supplementing 
the pressure from the U.S. Congress, which we are trying to get 
the maximum pressure out of that.
    So we have a little more pressure that we can apply in 
Eastern Europe than we do in Euro-Asia right now in the former 
Soviet Union. But I think any direction we can get the pressure 
from, we ought to activate it.
    Mr. Burton. If the gentleman would yield further, I think 
that kind of pressure is very important. But I am one of those 
guys that believes that money has a tremendous amount of 
influence on people. I could be wrong. [Laughter.]
    I think that if the World Bank and the IMF and our people 
on the boards of those institutions would say that has to be a 
condition for loans, it would carry a lot of weight, as well as 
the reward situation that we talked about.
    Mr. Miller. The challenge would be, of course, in drafting 
the condition.
    Mr. Burton. That should not be a problem. You know, we give 
money to those institutions to loan out to the rest of the 
world; and it seems to me it should not be any real difficulty 
for the Board to sit down and say, here is the requirement and 
then vote on it and put it into force. That is not a big issue.
    Mr. Miller. I will carry your idea back to the Treasury 
Department that deals with those organizations. Congressman 
Smith, I think you left us with a couple other questions.
    You mentioned the military, and that is an issue where you 
have been involved. It is regrettable, but true, that military 
peacekeepers, aid workers, for that matter, in post-conflict 
situations frequently, through participating in prostitution, 
contribute to the phenomenon of trafficking.
    Your work helped lead to an IG investigation by the Defense 
Department of what was going on in Korea. I think that 
department has undertaken a number of steps in South Korea, 
including putting clubs off limits, improving communications 
with South Korean authorities, etc.
    The President called for a zero tolerance policy on all 
Government personnel, including our contractors, and this is 
something that we have to enforce throughout the world. 
Certainly the U.S. military or any other military that we are 
working with should not be exempt.
    Mr. Hill is going to comment on Russia and maybe I will add 
something to that after you finish, Kent.
    Mr. Hill. Two points, on absorptive capacity, Charlie and I 
need to have a conversation about whether we could do something 
more with money to spend there. I think we definitely can. I 
think there is no question that the need is great.
    We were thrilled when the President made the additional 
commitment. We have been putting our heads together, thinking 
about the ways we can make a difference, so I am very 
committed.
    Let me just give you an example of the sorts of things that 
we could do with more money. We have shelters in different 
parts of the world, but a lot of times they are very short-term 
shelters. So a lot of times, it is not uncommon for a woman to 
be in a shelter and somehow, because she has no way to really 
escape her plight, she ends up back in the same boat again. If 
there was a longer term, more serious exposure to help, it 
would make a big difference.
    This could include, for example, as we are doing in 
Romania, for example, combining micro-enterprise work with the 
shelter. We can do that. The only reason we do not do it is 
because of lack of funds.
    There is a lot more that can be done on the public 
awareness side that I think would make a difference. There is a 
whole series of things that I am convinced we could 
successfully spend much more money on and have a bigger impact 
than we do at present.
    The Russia issue is a very interesting one. We have been 
following this now for about 3 or 4 years, since the first 
version of an anti-trafficking law surfaced. That was a very 
strong law. Then somehow, a weaker law got into the mix, and 
then a stronger law was back in.
    Recently, within the last few weeks, there was real concern 
that there was pressure building in Russia for some major 
weakening of the anti-trafficking law that was being considered 
this fall and this winter.
    The Ambassador, Ambassador Birchbow, was sufficiently 
fearful about this, that he wrote a very strong piece that was 
published in a Russian newspaper, in which he warned the 
Russian Government about the dangers of backing away from a 
very strong law. So we were kind of waiting to see what the 
next action would be.
    Well, the news is quite encouraging, and I have in front of 
me, in fact, the speech that Vladimir Putin gave in the Kremlin 
2 days ago, in which he took a very strong stand. In fact, on 
that day, on Monday, he introduced new amendments to the law, 
which actually strengthen it in very significant ways.
    Now it is true, there was another agenda here. The agenda 
is, he is trying to explain to the world his actions right now 
against one of the wealthiest men in Russia, Horakowski, and he 
is trying to suggest that the rule of law is now coming into 
play in Russia in a much bigger and newer way. An example of 
that was his strong stance on anti-trafficking.
    Now some are suspicious that there is more going on than 
rule of law, when dealing with some of his opponents who 
support other political parties. But I do not know anybody, or 
very few, who do not applaud what he has done here with respect 
to this law.
    The cable that I read just this morning from Moscow 
suggests that there is reason to believe that by the end of 
this year, within just a few weeks, this new tougher law will 
go into effect with the President's support, and that is the 
word I am getting, not only from the Embassy, but from our 
anti-trafficking friends from the International NGO community.
    Mr. Miller. I am going to add one thing to that. We have 
been waiting for this law. This law was offered as the promised 
action that should keep Russia from being on Tier 3, last June. 
Drafts of this have been circulating now for almost a year.
    It was supposed to pass last June. It did not. I am 
delighted that President Putin, 2 days ago, made this speech; 
and I am delighted that he is behind it. But I think it 
behooves all of us to let people in Russia know how important 
this is to get it passed. Because the excuse that is always 
offered for inaction in Russia on this issue is, there is no 
law.
    President Bush took this up with President Putin at his 
recent meeting. When I was in Moscow, 3 weeks ago, every 
meeting I had, I pushed this issue. I hope they pass the law 
this year; and even more important, I hope they then enforce 
the law and throw some of these traffickers in jail and rescue 
some of the victims.
    Mr. Smith. I appreciate that very much, and thank you for 
that update as well as the very strong statement. If I could, 
Mr. Chairman, I have other questions but I will submit them.
    Just in answer to your earlier question, the original law 
does give the ability to the President to direct our Executive 
Directors at the IMF and other multi-lateral lending 
institutions to vote against and to speak out against loans to 
countries that are on Tier 3.
    But I think you asked the larger question that, as a 
condition or a pre-condition to getting those loans themselves, 
the IMF and the others ought to have a criteria that includes 
trafficking. I think that is very, very important. That would 
really send a message. Right now, we are one vote and voice, 
among a board that would decide a loan, and if we raised this, 
we could be out-voted. But you are suggesting a larger message, 
and I think it is a very good idea.
    Mr. Burton. Well, I would suggest to my colleague, if he 
would yield to me real quickly, that maybe we draft a letter to 
the IMF and the World Bank, and I am sure we could get a lot of 
Members of Congress to sign it and send it to them, urging them 
to include this in the criteria that must be used to give a 
loan to a Third World country from the IMF head of the World 
Bank.
    Do you have any other questions, Mr. Smith?
    Mr. Smith. No.
    Mr. Burton. Well, I want to thank you, John.
    Oh, do you have another question? Excuse me, I am sorry, 
Ms. Watson, go ahead.
    Ms. Watson. Mr. Chairman, thank you; this is a very 
personal and directed question. I had gotten a call from a 
constituent, but Radio-Free Europe just this week reported on 
Gulnora Karimova, and you might be familiar with that name. I 
am going to give you this memo.
    She is the daughter of the President of Uzbekistan, and I 
understand she is making a lot of money trafficking in 
prostitutes. Her travel agency has been awarded a monopoly on 
travel from Uzbekistan to Dubai. It was reported that most of 
the people who use this service are young Uzbeki women, who are 
being transported to the United Arab Emirates for purposes of 
prostitution.
    When President Bush spoke at the United Nations last month, 
he had strongly condemned sex trade. The priority Congress has 
given to the issue makes it a primary issue that we need to go 
after. So I would want to know what the State Department is 
doing about this situation in Uzbekistan, and I will give you 
this memo. You can respond and I will share it with my 
colleagues.
    Mr. Miller. I would appreciate that and we will get back to 
you.
    Ms. Watson. All right.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.030
    
    [GRAPHIC] [TIFF OMITTED] T3282.031
    
    [GRAPHIC] [TIFF OMITTED] T3282.032
    
    Mr. Burton. Well, thank you, Ms. Watson and John, my former 
colleague. It is nice to see you. We appreciate your enthusiasm 
for the position you now occupy.
    Dr. Hill, thank you very much for your statements, as well, 
and your hard work. We will look forward to working with you in 
the future, and we will send you a copy of our letter that we 
send to the IMF and the World Bank.
    Regarding that $8 million that they cut out because you 
could not use it, you let us know when that comes up again and 
we will see if we cannot put that in the reward fund, OK; 
thanks an awful lot.
    Our next panel is Mr. Kevin Bales. He is president of the 
Free the Slaves organization; Ms. Sharon Cohn, director of 
Anti-Trafficking, International Justice Mission; Dr. Mohamed 
Mattar, co-director of the Protection Project, Johns Hopkins 
University of Advanced International Studies; Mr. Andrew 
Johnson, office director, Save the Children Federation; and Dr. 
Janice Raymond, co-executive director of the Coalition Against 
Trafficking in Women.
    Would you gentlemen and ladies come forward and we will 
swear you in. Mr. Bales is on a plane right now and he will be 
here for the conclusion of the hearing. Could you stand up and 
I will swear you in. It is a common procedure we have here.
    [Witnesses sworn.]
    Mr. Burton. Do we have you in the right order: Dr. Mattar, 
Ms. Cohn, Mr. Johnson, and Dr. Raymond? OK, I think we probably 
normally start with ladies first. Is that what you prefer 
today? Let us start with Dr. Raymond and we will just go this 
way. You are recognized for 5 minutes, Doctor.

STATEMENTS OF JANICE RAYMOND, CO-EXECUTIVE DIRECTOR, COALITION 
AGAINST TRAFFICKING IN WOMEN; ANDREW JOHNSON, SAVE THE CHILDREN 
     FEDERATION; SHARON COHN, DIRECTOR, ANTI-TRAFFICKING, 
 INTERNATIONAL JUSTICE MISSION; MOHAMED MATTAR, CO-DIRECTOR OF 
  THE PROTECTION PROJECT, JOHNS HOPKINS UNIVERSITY SCHOOL OF 
  ADVANCED INTERNATIONAL STUDIES; AND KEVIN BALES, PRESIDENT, 
                        FREE THE SLAVES

    Ms. Raymond. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity of presenting testimony before 
this committee. To put my remarks in context, I should tell you 
that my organization, the Coalition Against Trafficking in 
Women, has been working for 15 years to promote women's and 
children's right to be free of sexual exploitation.
    We have organizations in most of the major world regions, 
and we conducted the first U.S.-based study, funded by the 
National Institute of Justice, beginning in 1998, that 
interviewed numbers of trafficking victims.
    I will not go over the numbers, since many of the speakers 
have already addressed that, as well as you, Mr. Chairman. But 
I would like to say some things on the policy level.
    The first thing that I would like to say is that sex 
trafficking depends upon globalization of the sex industry. As 
many of us already know, globalization of the sex industry 
means that countries are under an illusion if they think they 
can address trafficking without addressing prostitution.
    I am going to use a term here which we use called state-
sponsored prostitution. We believe that state-sponsored 
prostitution is a root cause of trafficking. We call legalized 
or regulated prostitution, state-sponsored prostitution, and 
many of these systems vary somewhat. But the common element, of 
course, is that the state becomes tolerant and accepts the 
system of prostitution and, in most cases, benefits from it.
    We have found that there is a fundamental connection 
between the legal recognition of prostitution industries and 
the increase in victims of trafficking. No where do we see this 
relationship more clearly than in countries advocating 
prostitution as an employment choice; or who foster outright 
legalization; or who support the decriminalization of the sex 
industry.
    The Netherlands is a case in point here. Director Miller 
and others have mentioned the Netherlands. One argument for 
legalizing prostitution in the Netherlands is that it would 
help end the use and abuse of desperate immigrant women who 
were trafficked there.
    But several reports have been done on the Netherlands, and 
it is widely now agreed that 80 percent of the women in the 
brothels in the Netherlands are trafficked from other 
countries.
    The Coalition Against Trafficking in Women commends the 
efforts of Director Miller of the Trafficking in Persons Office 
and his staff. He has provided much needed leadership in this 
position. But both he and we know that much more needs to be 
done.
    Each year, as has already been discussed, the United States 
has mandated under the Trafficking Victims Protection Act to 
provide a report on countries' efforts to combat trafficking in 
persons.
    Unfortunately, there are countries, as Congresswoman Watson 
has already mentioned, such as the Netherlands, and Germany is 
another one, that are ranked in Tier 1, the top-most category. 
These two countries have legalized or de-criminalized the 
prostitution industries.
    We and other NGO's have recommended that no country 
legalizing prostitution should be in Tier 1 because these 
countries have legalized brothels and pimping that contribute, 
in the words of the Trafficking Victims Protection Act, to 
significant numbers of women being trafficked for sexual 
exploitation.
    So we think that needs work. We know that this is a very 
sensitive issue, but we are seeing this all over Europe, in 
particular. We are seeing this also in other countries, as 
well. But we are really facing a public policy crisis in terms 
of the trend toward legalization in other parts of the world.
    One other thing, Mr. Chairman, specifically that I would 
like to mention is the National Security Presidential 
Directive, which others have already mentioned, as well, 
stating that prostitution and related activities are inherently 
harmful, dehumanizing, and identifying these activities as 
contributing to trafficking.
    That policy, as we know, directs all agencies to review 
matters, including their grantmaking actions. We applaud this 
policy, but we caution that any policy is only as good as its 
implementation. One problem is that US NGO's supporting 
prostitution as work and decriminalization of the sex industry 
are still being funded.
    We understand that this takes a while. We certainly hope 
that we will see different action on this; but meanwhile groups 
and NGO's that we work with, who have submitted proposals, have 
not yet been funded.
    I did receive some good news today from Director Miller 
that one of those groups is being funded, and we are very 
grateful for that, but we think we have a ways to go in terms 
of the funding of groups, feminist groups, faith-based groups, 
who do support the Presidential directive. This, I might say, 
is an issue that really crosses a lot of political boundaries.
    So I think we have reached a point in our anti-trafficking 
work where in order to realize our goals of combating 
trafficking, we must do a lot more than issue a policy and, as 
the old saying goes, Government must be willing to place its 
money where its mouth is. Thank you.
    [The prepared statement of Ms. Raymond follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.033
    
    [GRAPHIC] [TIFF OMITTED] T3282.034
    
    [GRAPHIC] [TIFF OMITTED] T3282.035
    
    [GRAPHIC] [TIFF OMITTED] T3282.036
    
    [GRAPHIC] [TIFF OMITTED] T3282.037
    
    [GRAPHIC] [TIFF OMITTED] T3282.038
    
    Mr. Burton. Thank you, Dr. Raymond.
    Mr. Johnson, you are recognized for 5 minutes.
    Mr. Johnson. On behalf of Save the Children, I would like 
to thank the committee here today for the opportunity to speak 
about the global situation of children caught up in human 
trafficking and slavery. In my presentation today, I would like 
to focus on children trafficking to the sex trade and those 
children caught up in cycles of slavery throughout the world.
    You have heard from Mr. Miller about the stories of Sasha, 
Lured, and Sema, and I would like to talk to you about a story 
of my own.
    There was a young girl who I met 3 or 4 years ago. Her name 
was Sumi. She was a girl like any other at the age of 11, who 
had hopes and desires to be something some day, to be someone 
some day. But her circumstances were very different.
    She was born into a brothel village, and the brothel 
village was near hundreds of tiny sheds, in which women were 
kept more or less enslaved by the pimps and the brothel owners 
who serviced over 15 to 20 clients per day.
    Sumi, herself, was actually housed in the same apartment, 
the same small shed, in which her mother had to service her 
clients. So life was very difficult for her. So unlike the 
other stories that you see that the bondage, the slavery is 
generational; her mother and then Sumi.
    What was happening with the children is that while their 
mothers were being forced to work, they were out drinking, 
taking drugs, and then unfortunately, when the girls reached 
the age of 14, they would then take on the roles that their 
mothers had taken on, and would become enslaved with the same 
pimps. The people who were exploiting their mothers would then 
become their own.
    We learned of her plight and were able to establish a safe 
house for Sumi and 30 other children who were in this brothel 
village. We were able to go to the community, to go to the 
local schools, to ensure that she actually got the education to 
which she was denied through stigmatization and discrimination.
    Today, and I just checked the other day, she had told me 3 
years ago that she wanted to be a journalist. She is top in her 
class right now, and today she still wants to be a journalist. 
So there are effective things that both Government and non-
Government organizations can do to stop the cycle.
    You have already heard about the figures today, so I will 
not go into those. But to give you some background about the 
families and the situations that lead children to be 
trafficked, most trafficked children obviously come from poor 
families in economically disadvantaged countries of widespread 
poverty, where combinations of poverty, unemployment, armed 
violence, ethnic and racial conflicts, environmental 
degradation, abuse of power and corruption exist.
    Though boys are known to be trafficked for sexual purposes, 
as in general prostitution, adolescent girls represent the most 
significant numbers of victims. In many countries, girls' 
vulnerability to trafficking is due to their low status in 
their community.
    Save the Children's research displays a great variety of 
the ways in which traffickers operate and the conditions under 
which children are sexually exploited. Children are trafficked 
through deception, abduction, through their own choice and, in 
some cases, as we heard earlier today, through their care-
givers selling them off.
    One example of our research was in Albania, and a typical 
form of deception is through the false offer of marriage from a 
trafficker. Funding from the Save the Children repatriation 
work with returning trafficking victims in Romania suggests 
that traffickers particularly target young girls, inexperienced 
girls, as they are regarded as the most easily manipulated.
    We very much welcome the steps taken by the U.S. Government 
to treat children who have been trafficked victims rather than 
offenders. Unfortunately, this approach is rare in most parts 
of the world. Ultimately, if detected by legal authorities, 
children are frequently treated as offenders rather than 
victims, and run the risk of arrest and deportation.
    I would now like to end quickly with some short 
recommendations. Certainly, the overall recommendation, as we 
have heard from the other speakers today is that child sexual 
slavery and trafficking must be explicitly addressed in poverty 
eradication efforts and macroeconomic policymaking.
    In international development corporations, as well as 
national budget allocations, a high priority shall be accorded 
to the prevention of child sexual exploitation; further, to 
increase the development of and further commitment to the 
funding of exit and rehabilitation programs for children 
exploited and trafficked for sexual purposes.
    We have heard about the lead that the U.S. Government has 
taken, and we once again support that to ensure that child 
victims of trafficking shall be offered support, temporary 
residential permits, and safe conditions for giving testimony 
in countries of destination.
    We also support the U.S. Government's continued role to 
ensure that countries enact legislation to ensure that their 
citizens, as well as temporary permanent residents, are able to 
be prosecuted for sexual offenses against children under 18.
    Second, children have the right to influence and 
participate in the development of solutions to problems related 
to sexual exploitation and abuse. Very often, they are one of 
the greatest sources to find out what the problems are and also 
what the solutions may be.
    Finally, the continual research and investigation on child 
exploitation and trafficking should be conducted in order to 
establish data bases which enable specific interventions.
    I would just like to end finally on a letter that Sumi had 
written to the village which she read some 2 years ago. She 
stated, ``I have written an open letter to you. I would like to 
read this letter to you. I hope that you will listen the 
letter. We are all children. We all have our rights. We also 
want to live as good citizens. We want to live with other 
members of society.
    ``I have a request to you that we also want your 
corporation, so that we can live like other children. My mother 
is a prostitute. I hate prostitution, but I love my mother. I 
do not want to be a prostitute. I want to grow as a big 
personality doing my study. Therefore, I appeal to all of you 
for your sincere cooperation.''
    On behalf of Sumi and Save the Children, I would like to 
thank this committee, again, for your interest and commitment 
to stopping sexual trafficking and slavery.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.039
    
    [GRAPHIC] [TIFF OMITTED] T3282.040
    
    [GRAPHIC] [TIFF OMITTED] T3282.041
    
    [GRAPHIC] [TIFF OMITTED] T3282.042
    
    [GRAPHIC] [TIFF OMITTED] T3282.043
    
    Mr. Burton. Thank you very much, Mr. Johnson.
    Ms. Cohn.
    Ms. Cohn. Mr. Chairman and members of the subcommittee, Mr. 
Smith, we are so grateful for your participation in your 
holding this hearing on the ongoing tragedy of international 
slavery and human trafficking.
    My name is Sharon Cohn, and I serve as senior counsel and 
the director of the Anti-Trafficking Operations for 
International Justice Mission. We believe that modern-day 
slavery is fatally vulnerable to the vigilant efforts of the 
U.S. Government and the international community to crush this 
trade.
    As Congressman Smith just said, this is a winnable war. I 
am grateful to the committee for the opportunity to share a 
little of what IJM has learned through its field experience 
around the world.
    IJM deploys criminal investigators around the world to 
infiltrate brothels and to use surveillance technology to 
document where the victims are being held, identify secure 
police contacts who will conduct raids with us to release the 
victims and arrest the perpetrators. We then coordinate the 
referral of these victims to appropriate after-care and support 
and monitor the prosecutions.
    IJM investigators also infiltrate industries that bond 
children into slavery and work with local authorities 
throughout Asia to break those bonds and prosecute the 
offenders.
    We have spend literally thousands of hours infiltrating the 
sex trafficking industry and working with Government 
authorities around the world to bring effective rescue to the 
victims and accountability to the perpetrators. Through this, I 
think we have gained some valuable insight into the nature of 
the crime, and also into its weaknesses. Due to the time 
constraints, I will limit my comments to sex trafficking.
    Mr. Chairman, you have stated the statistics that testify 
to the magnitude of this tragedy. The research has shown that 
trafficking is the third largest source of profits for 
organized crime after guns and drugs.
    How does it thrive so unhindered? Well, our experience has 
shown us that sex trafficking thrives because it is permitted, 
encouraged, tolerated, and profited by local law enforcement in 
countries around the world.
    In cities around the world, millions of women and girls are 
trafficked and offered to customers in the brothels. Every day, 
millions of customers are able to find these girls.
    It does no good at all for the brothel keepers to keep 
these girls hidden. In fact, to make money on their investment, 
they must hold these girls open to the public every day, 
continuously, over a long period of time. Obviously, therefore, 
the customers can find these victims whenever they want, and so 
can the police.
    How, therefore, do you possibly get away with running a sex 
trafficking enterprise? You do this only if it is permitted by 
local law enforcement. Generally, this is facilitated by 
bringing the police into the business, sharing the profits with 
them in exchange for protection, and violating the laws that 
are present in those countries every day.
    The truth is most tragically demonstrated through the lives 
of the victims that we have come to know and have had the 
privilege to assist in rescuing.
    I wanted to take a few minutes to tell you about a friend 
of mine, Simla, who was trafficked in Southeast Asia when she 
was 11\1/2\ years old. But since you have heard so many stories 
about the tragedies that befall these victims, let me say just 
this point.
    After being subjected to beatings and sexual assaults for 
2\1/2\ years, I want to tell you about the worst beating that 
she ever received.
    The worst beating that she ever received, the one that made 
it difficult for her to walk, was a beating she received after 
a police officer complained that she did not smile after she 
was forced to have sex with him, and thus offended his ego, and 
the brothel keeper beat her within an inch of her life.
    This police officer would come to the brothel regularly to 
receive his payment in kind; and Simla and her friends in the 
brothel confirmed to us that other officers regularly visited 
the brothel and abused the girls.
    When we went to raid this particular brothel, there was a 
tip-off by local law enforcement and the girls were loaded into 
the back of a flat-bed truck and driven away. Ultimately, we 
were able to find the girls and Simla is now in good after-
care, being provided for.
    Just 2 weeks ago, Mr. Chairman, I interviewed a victim who 
escaped from a brothel several weeks ago. She told me the story 
that before she escaped, two other girls had escaped from the 
brothel, where there were 100 girls and 30 minors.
    Two girls had escaped from the brothel, and the brothel 
keeper picked up the phone and called the police. He called the 
police and said that he wanted his property returned. Two hours 
later, those two victims were returned to the brothel, bound by 
rope, and beaten by the police in uniform.
    They pulled up in a police car and were brought to the 
brothel, where the brothel keeper put the other girls inside 
another room and shot those two victims dead. This is the 
complicity of local law enforcement that IJM has found in its 
work.
    Stories like this are repeated throughout the world where 
local law enforcement do the bidding of traffickers and brothel 
keepers. The fact is, without police protection, the brothel 
keeper simply cannot succeed; and with it, he cannot fail.
    Once the police switch sides, the brothel keeper is fatally 
vulnerable and effective law enforcement can provide rescue and 
secure arrests. Until they do, it is the girls that are fatally 
vulnerable.
    But in the end, it is this vulnerability of the brothel 
keepers that is exceptionally good news; because it means that 
sex trafficking is a disaster that can be prevented and that 
can be stopped.
    We saw just a glimpse of this when we were in Cambodia over 
the last several years. We did a 3-year investigation that 
ultimately found that there were at least 45 girls under the 
age of 14 that were being trafficked and sold every day to 
pedophiles, including American pedophiles, that would travel to 
Cambodia.
    Mr. Chairman, it was because of the courageous leadership 
of Ambassador Charles Ray in Cambodia, and his insistence that 
the Cambodian Government work with IJM, that we were able to 
rescue 37 young girls and arrest some of the perpetrators.
    Mr. Chairman, I am pleased to say that on October 15th, 
thanks to the work of the U.S. Embassy and good law 
enforcement, we were able to see the conviction of six 
traffickers and brothel keepers in Cambodia who were sentenced 
to terms of imprisonment from 5 to 15 years.
    I should say that in the courtroom, Mr. Chairman, there was 
half the brothel community that showed up for the trial to see 
whether, in fact, anybody ever gets in trouble for selling 
small children, the youngest of whom was 5.
    I can say that the conviction resulted in the brothel 
community looking upon their colleagues and seeing that they 
were sentenced to terms of imprisonment and that, in fact, the 
English, French, and continental newspapers published on the 
first page the next day that, in fact, people do go to jail for 
trafficking small children in Cambodia.
    So I want to thank this subcommittee for holding this 
hearing, but also commend the State Department's Trafficking In 
Persons department, under the leadership of Congressman Miller, 
that has just done a fantastic job in communicating to our 
embassies overseas that it is the policy of this Government, 
this Congress, and this administration, that it will not 
tolerate sex trafficking among any of the allies that we work 
with; and that, in fact, there are consequences for failure to 
act.
    I would encourage this subcommittee to continue to provide 
not only encouragement to the State Department and to the 
countries that it meets with; but also to provide the necessary 
resources to provide effective capacity building for those 
governments in law enforcement that are willing to, in fact, 
effectively combat trafficking.
    Thank you for your time, and I am available for questions.
    [The prepared statement of Ms. Cohn follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.044
    
    [GRAPHIC] [TIFF OMITTED] T3282.045
    
    [GRAPHIC] [TIFF OMITTED] T3282.046
    
    [GRAPHIC] [TIFF OMITTED] T3282.047
    
    [GRAPHIC] [TIFF OMITTED] T3282.048
    
    [GRAPHIC] [TIFF OMITTED] T3282.049
    
    Mr. Burton. Thank you, Ms. Cohn. We will have some 
questions for you in just a minute.
    Dr. Mattar.
    Mr. Mattar. Mr. Chairman and distinguished members of the 
subcommittee, I am really privileged to speak to you today on 
the role of Government in combating the problem of trafficking 
in persons.
    First of all, let me point out that the basic duty of all 
states is to ensure the fundamental human rights of all 
citizens. The universal declaration of human rights states that 
no one shall be held in slavery or servitude, and that slavery 
and slave trade shall be prohibited in all their forms.
    However, our presence at this hearing today indicates that 
trafficking in persons is indeed an ongoing tragedy, and that 
the work has not yet done enough to protect the human rights of 
victims of trafficking.
    There have been some efforts made by governments to shift 
the focus from treating the traffic person as a criminal to 
recognizing such person as a victim. Unfortunately, many 
countries today still do not respect the human rights of 
victims of trafficking, charging them with immigration 
violations; detaining them in prisons; and deporting them.
    Governments have the responsibility to identify victims of 
trafficking and assist them to come forward without fear of 
punishment. I think the real challenge for us here in the 
United States, and for many other countries, is to reach 
victims of trafficking.
    The Trafficking Victims Protection Act, for instance, 
provides for 5,000 visas for victims of trafficking. 
Unfortunately, very few victims have applied for these visas. 
The U.S. Department of Health and Human Services has put in 
place successful programs of assistance to victims of 
trafficking, but I believe that we need a specific program 
identifying victims of trafficking around the country.
    Governments have also the responsibility to address the 
contributing factors to the trafficking infrastructure. 
Governments must enact economic reforms, addressing the special 
vulnerability of women and children. Here, I would like to urge 
the USAID to expand its program to address the specific problem 
of vulnerability, especially of women and children to 
trafficking.
    Furthermore, governments have the responsibility to enact 
legislation to recognize all forms of sexual exploitation as a 
crime, including the trafficking for the purpose of 
prostitution, pornography, mail order brides, and sex tourism.
    President Bush, in his speech to the United Nations on 
September 26, 2003, referring to the sex tourism industry, 
called upon governments to inform travelers of the harm this 
industry does.
    I urge Members of the House to pass H.R. 2620, the 
Trafficking Victims Protection Reauthorization Act of 2003, and 
I want to commend Congressman Chris Smith for his excellent 
work that requires airlines to develop and disseminate 
information, alerting travelers that sex tourism is a crime.
    Governments have the responsibility to punish all 
participants involved in the trafficking scheme, including the 
customer and the facilitators; especially public officials who 
are corrupt. Unfortunately, few legal systems penalize the 
customer, and very few countries are willing to prosecute 
corrupt public officials.
    I urge the U.S. Department of State Office to Monitor 
Trafficking in Persons to take into account the link between 
demand in trafficking and scathing of government efforts in the 
annual Trafficking in Persons Report.
    Governments have also the responsibility to enforce laws by 
prosecuting cases of trafficking. To date, in many parts of the 
world, the rates of prosecution are rather low, very low. I 
urge the Department of Justice to expand its training programs 
on prosecuting cases of trafficking to each of the countries 
where the rates of prosecution are still very low, while the 
problem of trafficking is growing.
    However, it is important to reform not only the law, but 
also what I call the functional equivalent of the law. By that, 
I mean the customers, the traditions, the behavior. Countries 
that tolerate or accommodate or normalize prostitution should 
review their policies and inquire into whether such tolerance, 
accommodation, and normalization may contribute to rising 
numbers of victims of trafficking.
    Governments have also the responsibility to cooperate with 
NGO's, allowing them the freedom to work, and consult with them 
in taking the necessary measures to combat trafficking. 
Unfortunately, in many countries around the world, NGO's are 
not allowed the freedom to function at all. I would like to see 
the United States playing a more active role in promoting human 
rights, especially in these countries.
    In conclusion, I would like to report to you today that the 
United Nations protocol to prevent, suppress, and punish 
trafficking in persons, especially women and children, will 
become international law this December 2003.
    We needed under Article 17, 40 instruments of ratification 
for the protocol to enter into force. On September 26, 2003, we 
reached our goal. Countries that defied the protocol must now 
comply with its mandates.
    I would urge the United States to rectify the protocol. We 
have created international consensus as to the recognition of 
trafficking in persons as a human rights violation. It is now 
time to take serious, effective, and comprehensive measures to 
eliminate the ongoing tragedy of international slavery and 
human trafficking.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mattar follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.050
    
    [GRAPHIC] [TIFF OMITTED] T3282.051
    
    [GRAPHIC] [TIFF OMITTED] T3282.052
    
    [GRAPHIC] [TIFF OMITTED] T3282.053
    
    [GRAPHIC] [TIFF OMITTED] T3282.054
    
    [GRAPHIC] [TIFF OMITTED] T3282.055
    
    [GRAPHIC] [TIFF OMITTED] T3282.056
    
    [GRAPHIC] [TIFF OMITTED] T3282.057
    
    [GRAPHIC] [TIFF OMITTED] T3282.058
    
    [GRAPHIC] [TIFF OMITTED] T3282.059
    
    [GRAPHIC] [TIFF OMITTED] T3282.060
    
    [GRAPHIC] [TIFF OMITTED] T3282.061
    
    [GRAPHIC] [TIFF OMITTED] T3282.062
    
    [GRAPHIC] [TIFF OMITTED] T3282.063
    
    [GRAPHIC] [TIFF OMITTED] T3282.064
    
    [GRAPHIC] [TIFF OMITTED] T3282.065
    
    Mr. Burton. Thank you, Mr. Mattar. Let me start with some 
questions. Mr. Bales is on his way. I think he has landed now, 
and when we arrives we will let him make his statement. But in 
the interim, we will go ahead and start with questions. The 
votes on the floor have been postponed for awhile, so maybe we 
can get on with the business at hand.
    Ms. Cohn, you mentioned a country where the police were 
complicities in the prostitution, and were involved in killing 
two ladies that escaped from one of these dens of inequity. Can 
you tell us the name of that country?
    Ms. Cohn. Mr. Chairman, I would be eager to discuss with 
you or your staff any of the specifics of that case, but it is 
an ongoing investigation and I would be reluctant to say it 
publicly.
    Mr. Burton. I see, because you think it might endanger 
others that are there.
    Ms. Cohn. And hinder whatever further investigation against 
the police officers that might take place.
    Mr. Burton. Well, we would like to know that, if it is 
possible. Maybe you can give it to us in private, so that we 
can maybe use whatever influence we might have on our agencies 
to make sure that the government of that country knows of those 
incidents and tries to clean up the mess and bring those to 
justice that are involved in that.
    There is nothing I can think of that is worse than people 
who are in the position of law enforcement, who are supposed to 
have the public trust and the public's interests in mind, that 
are participating in criminal activities.
    We have had a case here in the United States where one man 
was put in jail for 30 some years for a crime he did not 
commit, because of FBI agents that were corrupt. One of them 
has been put in jail, and another one is now going to be tried 
for murder.
    So we need to clean that mess up, whether it is here in the 
United States or elsewhere. So if you could give us that 
information, we would really appreciate it.
    Let me ask you what kind of surveillance they use; or is 
that something else that you would like to keep under wraps?
    Ms. Cohn. Mr. Chairman, IJM's investigators are former law 
enforcement officers themselves from here in the United States 
and from around the world. They use traditional surveillance 
methods, including under-cover cameras and the like to show on 
tape that a particular victim is being offered for a particular 
act by a specific perpetrator.
    We were able actually to use that under-cover video 
surveillance at trial in Cambodia on October 15, and that was 
the only evidence used to convict the perpetrators. I would be 
very delighted to show you or your staff some of that video. 
But to protect the privacy of the victims, we were not able to 
show it today.
    Mr. Burton. Let me ask you, the victims, when given a 
chance to talk about their being brought into this business 
through slavery methods, are they willing to talk privately 
about it, or are they scared to death of the law enforcement?
    Ms. Cohn. The victims are incredibly scared of law 
enforcement, because they have often seen those same police 
officers come into the brothels and abuse them; or have come 
into the brothels to accept bribes.
    They are, however, after counseling and after care in a 
rehabilitative and after-care facility, willing to provide just 
the most extraordinary horrific stories that I have ever heard. 
When I get to the point where I think I have heard the worst 
story of what can happen to a human ever, I talk to the next 
girl and hear yet another story.
    I would add, Mr. Chairman, just because I think this is an 
important point with the increasing attention paid to the HIV/
AIDS global pandemic, I think it is important to note that the 
real brutal end cruelty of human trafficking is that these 
girls are dying by the thousands of HIV/AIDS, and traditional 
methods to prevent AIDS or to give access to these girls to 
HIV/AIDS prevention are not permitted, because the girls have 
no ability to choose their sexual partners and are not given 
any access to traditional preventive methods.
    Anecdotes tell us that about 80 percent of trafficking 
victims in South Asia are HIV positive upon rescue.
    Mr. Burton. Eighty-percent?
    Ms. Cohn. Eighty-percent.
    Mr. Burton. So not only are they penalized with a shorter 
life and a more difficult lifestyle because of that disease, 
but also they are a walking epidemic.
    Ms. Cohn. That is correct, Mr. Chairman.
    Mr. Burton. The Coalition Against Trafficking in Woman, you 
said 80 percent of the women in the Netherlands, according to 
your information, are forced into prostitution?
    Ms. Cohn. No, I said 80 percent of the women in 
prostitution in the Netherlands are from other countries.
    Mr. Burton. Do you have any idea of how many of those that 
are from other countries that are literally forced into that, 
or do you have any idea about that?
    Ms. Cohn. Well, Mr. Chairman, we do not make a distinction 
between forced and free, in that sense, because we believe that 
whether or not a person gives consent, they are still 
exploited. But most of these women certainly have been 
trafficked, in terms of coming in across the border.
    The problem is, as we see it, when these women are brought 
into a country, for example, what we have in the Netherlands 
now is a policy, because many Dutch women do not want to be in 
prostitution anymore, the Dutch Government has decided to make 
the market bigger by actively searching for women in 
prostitution, who will come into the country to service the 
market, basically. So this means that they are, to a certain 
extent, looking for women who will populate the brothels.
    This is conditioned on the fact, as the government says, 
that they will basically be independent contractors, and that 
they will not be forced into the trade, etc.
    But we know that women from different countries, whether 
they come from Eastern Europe, or whether they come from Asia 
or Latin America, do not facilitate their own migration into 
countries like the Netherlands and Germany. They have to be 
assisted in some way to do that, and that is trafficking.
    But what we are seeing happen is that under the aegis of 
this notion of voluntary trafficking, people are using 
terminology such as voluntary migration for sex work at this 
point. The trafficking is actually being redefined, because of 
this very phony issue of voluntariness.
    Mr. Burton. Thank you.
    Mr. Johnson, you were talking about, I cannot remember, how 
much the cost is. I am trying to recall the question now. My 
notes are not too clear. How much money would it take to help 
deal with the problem of these children being brought into 
slavery? Do you have any idea?
    Mr. Johnson. I think it is impossible to put an exact 
number on it.
    Mr. Burton. Well, let me ask you this, and I will ask all 
of you this question. I talked to Mr. Miller when he was 
testifying awhile ago about setting up a fund where we could 
give rewards to people who turn in these people who are forcing 
people into slavery, whether it is prostitution, child 
prostitution, or whatever. Do you think that would be a 
positive thing to do?
    Mr. Johnson. I think that is an important step. To answer 
your question, I think that money spent on prevention, in the 
very beginning, when you are looking at this, is very 
important, to engender a culture of protection within the 
society itself.
    Mr. Burton. No, I understand that prevention is very 
important. But I am talking about, if you are going to stop 
this, you are going to have to deal with the people who are 
forcing people into slavery, whether it is prostitution or 
anything else.
    What I am asking is, from your experience and the 
information that you have been given through your studies, do 
you think that if we set up a fund, and there was money to be 
given to people who turned in these people who are putting 
people into slavery, do you think that would be effective?
    Mr. Mattar. I think it is a good idea. Let me refer here to 
the role which NGO's play in different countries, identifying 
victims of trafficking and trying to work with the police and 
law enforcement in identifying traffickers.
    So I think NGO's are already playing that role, trying to 
help the police identify traffickers and helping the police 
with assisting victims.
    Whether rewards would be given to NGO's or individuals who 
would help in that process, I think it is a good idea. I am not 
sure how it would be implemented in a certain mechanism.
    Mr. Burton. Ms. Cohn.
    Ms. Cohn. Mr. Chairman, I think that rewards could be an 
effective mechanism in identifying traffickers. What we find, 
at least in the countries where we work in Southeast Asia 
though, is the traffickers are often not terribly hidden, but 
there is so much freedom and such a culture of impunity in 
their committing their crimes, that the challenge is not 
actually finding them or even finding the evidence of them. The 
challenge is getting the government to have the political will 
and local enforcement to have the determination to arrest and 
move forward in the case.
    I would be concerned at local law enforcement, hoping to 
profit from rewards and being paid to do something that their 
job should already be paying them to do.
    Mr. Burton. Well, let me just ask one more question and 
then I will yield to my colleague, Mr. Smith. If could get the 
IMF and the World Bank and these other institutions that loan 
money to Third World countries that are involved in this kind 
of activity, who wink at the law enforcement agencies that are 
sanctioning prostitution, do you think, if they thought their 
government was going to be cutoff or have their foreign and 
foreign assistance reduced, that would be an effective tool to 
get them on the stick and stop law enforcement from 
participating and protecting the slave traders?
    Ms. Cohn. I think that the U.S.'s leadership in the 
Trafficking Victims Protection Act demonstrates that countries 
do respond to the threat of losing non-humanitarian aid, and 
would likewise respond to concerns about other sources of 
funding. So, yes, I do think that might motivate them.
    I should say on the other side, that there are people of 
goodwill in all these countries, doing very good things, 
including members of the Government; and that it is also, I 
think, the responsibility of the U.S. Government to provide 
them resources to combat this trafficking. That should not all 
be the stick but, in fact, be a carrot, as well.
    Mr. Burton. Did you have a comment before I yield to Mr. 
Smith?
    [No response.]
    Mr. Burton. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman; and again, I want to 
thank you for holding this very important hearing and for your 
ongoing commitment to this issue.
    I want to thank our panelists who are on the cutting edge 
and have been instrumental in motivating Congress; not just 
this Congress but other parliaments and Congresses around the 
world, to be more pro-active and, above all, to help the 
victims in each country.
    I know that the International Justice Mission and so many 
of you have been corroborating in the first writing of this 
legislation. You have provided us an enormous amount of input 
in the bill that hopefully will be up the floor next week. That 
will take us another step forward.
    As a matter of fact, as you know, Ms. Cohn, it was your 
organization that was so insistent on the police side of this, 
that some of the countries are maybe gaming the system. When we 
asked for information, not only were they rather shoddy in what 
they provide us, they talk about investigations and 
prosecutions but not convictions and sentencing. That is 
changed and fixed in this new piece of legislation.
    We also have a presumption that if they fail to cooperate 
with our request for data, at the Embassy and at Mr. Miller's 
level, we will presume that they have a bad story to tell and 
that it work be against them.
    We have to say that this is so serious to us, and hopefully 
it should be to you, that you risk being a Tier 3 sanctioned 
country going forward by your lack of responsiveness. That 
would be remedied in the new bill.
    On the police side, all of you make very good points, and 
Ms. Cohn, I think you make a very good point about that is the 
Achilles Heel of all of our efforts. If they continue their 
complicity, their protection, as you pointed out that 
despicable example of the police collecting in kind; you know, 
we will be at this and we will not win this.
    So I think police training, that is contained in the bill. 
But we have to get the political and all the other interested 
parties to take more seriously complicity by the police.
    I would point out and remind you, and you know it already, 
but in our minimum standards, certainly whether or not a 
country protects their victims. I say this to Mr. Johnson and 
you might want to respond to that, what countries, in your 
view, and maybe some of the more egregious ones, are not 
protecting their victims?
    Are there those that are not protecting that are on Tier 2, 
for example, that should be on Tier 3, because that is an 
essential minimum standard that was written in to the law?
    Everywhere we go, and I know, Mr. Miller does it, as well, 
and the State Department is doing it just like the NGO's, you 
know, it is not just prosecution. That is not enough. It has to 
be the concurrent, equal, if not more so, in terms of the human 
concern, to make sure that those victims are protected.
    So you might want to touch on that, as well, because you 
did say other nations treat victims as offenders. If there are 
some that are in Tier 2 or 1 that we are missing, please let us 
know now and perhaps by additional followup comments.
    You know, I have raised the issue with the Netherlands 
several times, including with the Chair and Office for the 
OSCE, which I chair. The lack of understanding that when you 
have, as you said, Dr. Raymond, 80 percent of the women in the 
Netherlands, and they are the Chair and Office at the OSCE, and 
speak glowingly about their efforts to mitigate trafficking. 
Yet, they have this, in their own back yard problem of all 
these foreign nationals working in their brothels, it is 
unclear how many of those are by force or some form of coercion 
are there. But certainly the exploitation is profound.
    I think, Mr. Chairman, and we ought to be looking at this 
in our own country, we certainly have a problem in places like 
Las Vegas. How many of those women have been trafficked? How 
many of those are there perhaps against their own will? I think 
that is ripe for investigation and, if necessary, if it yields 
something, prosecution.
    I would remind you and the members here, and the NGO's know 
it and Mr. Miller knows it, what led to the South Korean expose 
that women were being trafficked from Russia, from the 
Philippines under this ruse of an entertainment visa that the 
South Korean Government was giving out, and they were being 
brought into be exploited, that is gone now, I am happy to say.
    I would just note parenthetically that our Government and 
General Laporte has put 661 brothels in places off limits that 
previously had been permissible to go to, as a direct result of 
this.
    But they found, and a Fox reporter named Tom Merriman did 
the spade work on this, that all of these South Korean women 
were showing up in the United States, and it begged the 
question, where were they coming from? What was the network?
    This is here in the United States, so you might want to 
touch on that, as well, and we are running out of time. Maybe 
you want to touch on that, Mr. Johnson, on those who are not 
treating the victims as victims, but as offenders.
    Mr. Johnson. I think you are right in relation to what has 
been raised already about the training of police, in which 
getting the list of countries where the victims are actually 
treated as offenders. That is really at the local level, unless 
there is training to ensure that happens. That happens in my 
own country. There are examples, but it certainly happens much 
more in the developing world.
    One form of slavery that we have not talked about today are 
child soldiers; people who are forcing young boys and girls 
taken into conflict. We would like to talk about the women and 
children in the Conflict Protection Act, and we certainly thank 
Representative Shays for his co-sponsorship of that.
    Part of Save the Children's effort has been to look at a 
protection score card, particularly in relation to conflict, in 
relation to what countries they are doing in relation to 
protection, and we can certainly provide that to members after 
this hearing.
    I think it really is important, when you are looking at the 
countries, to look at the holistic nature of how we are dealing 
with the issue of trafficking and this culture of protection, 
whether it be in conflict or whether it be in a non-conflict 
setting.
    I think our earlier speakers talked about the four ``Ps.'' 
While law enforcement is very, very important, what one can do 
on the prevention side at the local level; what one can do on 
the recovery side; and the issue of funding is most important 
at those two ends.
    If we are able to get women and children out of these 
situations, then unless we can help them in recovery, then that 
will return back. Unless we stop the flow of these people to be 
manipulated, then we can keep on going. The law enforcement 
needs to happen, but we need to have the bookends, so to speak, 
of both prevention and recovery.
    Mr. Burton. Does anybody else have any comments they would 
like to make?
    Mr. Mattar. Very quickly, I just want to make reference to 
the importance of repatriation in any program of assisting 
victims of trafficking. What we are seeing in many countries of 
origin, they failed the test. They fail to accept back women in 
prostitution, who have been trafficked. They fail to provide 
them with safe return. They fail to issue for them travel 
documents very quickly and accept them back.
    You see that in the newly independent states, Central Asia. 
You see it in Moldavia. You see it in many countries. It think 
something has to be done when you talk about training programs. 
We have to be conscious of how to provide victims of 
trafficking with some kind of repatriation programs.
    Mr. Burton. I see Mr. Bales has arrived, but before we go 
to Mr. Bales, I think we will let Congressman Shays ask his 
questions.
    Mr. Shays. Mr. Chairman, I really had questions to ask, but 
I want Mr. Bales to go, and I have a feeling that we are going 
to then have to cutoff for votes.
    I just want to say what amazes me is, I used to look back 
and think, how could the world have traded in slavery? How 
could the civilized world have allowed it? Then there was this 
big debate, and ultimately, it became the ``cause celebre.''
    What surprises me, and not taking my full time, I would 
love someone to explain to me why this is not a ``cause 
celebre'' with women's organizations, why it is not the ``cause 
celebre'' with major organizations within countries, why 
countries do not treat it, including the United States, as a 
big issue until this President launched it; why so many 
countries yawned when the President talked about it as a major 
initiative?
    I do not understand that part of it, and I need someone to 
explain that to me. If you do not know, we will leave the 
question hanging, and let us hear from Mr. Bales, so we can 
make sure his trip here was worth it. I am assuming, Mr. 
Chairman, that this is not the last of your hearings.
    Mr. Burton. No, it is not the last, but it is the first. 
Mr. Bales, you are recognized.
    Mr. Bales. Thank you so much.
    Mr. Shays, let me take a quick attempt to answer your 
question.
    It is the case that in the past, the movements against 
slavery in those times were based upon public redefinitions of 
the reality of slavery as a moral issue.
    In the past, if we go back 200 or 300 years, slavery was 
seen as an economic topic, not a moral topic, possibly a 
political question. It took the public redefining it, from 
being an economic activity to being a moral concern, to turn it 
into a political issue.
    Mr. Shays. What about now, then?
    Mr. Bales. Well, that is what happened in the past, and 
that is what led to our own Constitutional amendment getting 
rid of slavery.
    Today, we are faced with a situation where the morality is 
not doubted, but it is completely surrounded by a kind of 
public ignorance. I believe that, in fact, it is not a question 
of the fact that it is not a ``cause celebre'' into the future, 
but that it is not a ``cause celebre'' yet.
    But in fact, as the understanding of the realities of this, 
the horrific physical realities and also the understanding of 
this is what could be the fundamental moral question of the 
21st century, it will become the ``cause celebre'' if that is 
of any use at all. But it is a very big question, indeed. Shall 
I proceed, sir?
    Mr. Burton. Yes, we have been waiting. I know that you 
missed your plane and you finally caught one, and we are glad 
you are here. So we would like to hear what you have to say, 
and then we will continue on with our questions.
    Mr. Bales. Thank you very much, and I apologize for my 
tardiness.
    Mr. Chairman and members of the committee, I cannot tell 
you how encouraged I am that this subject has been taken up by 
the House Human Rights and Wellness Subcommittee.
    As president of Free the Slaves, as an American, like all 
Americans, who loathes the crime of slavery, I am excited that 
our political leaders are taking up the issue of modern 
slavery.
    Free the Slaves is the American sister organization of 
Anti-Slavery International. It is the world's oldest human 
rights group, formed in 1787 in order to combat the slavery of 
that date. We want to build a positive relationship with the 
Government and promise to help in any way that we can.
    I want to add that Free the Slaves has already worked with 
committed Republicans and committed Democrats on this issue, 
and I believe that these hearings are an indication of how this 
is the time to bring together and unite all sides of the aisle 
and all kinds of voices around the issue and against the 
realities of contemporary slavery.
    This afternoon I would like to touch on four points very 
briefly: the nature of modern slavery, how slavery touches our 
lives, the urgent need for a consistent approach to slavery by 
the U.S. Government and some practical suggestions about how 
America can use its influence to end slavery once and for all.
    Slavery, real slavery, has increased, and I know you have 
been hearing about examples of it, dramatically across the 
world in the last 50 years. It has grown rapidly, in part, 
because of the belief among the public and even governments 
that slavery ended in 1865 or in the 19th century.
    But you know, for years, I have travelled the world, 
meeting slaves and meeting slaveholders, and meeting those 
people who are fighting slavery at the grassroots. I can assure 
you that slavery is not dead. My conservative estimate is that 
there are 27 million people in the world in slavery today.
    Now let me be clear that I am talking about slavery; in its 
most basic form, the holding of a person against their will 
through violence, paying them nothing, and forcing them to 
work. It is the same basic slavery that has dogged humanity for 
at least 5,000 years, but today it has some pernicious modern 
twists.
    For example, and I think you mentioned this in your opening 
remarks, slaves are cheaper today than they have ever been in 
human history. Rapid population growth, combined with the 
impacts of modernization and globalization on the economies of 
the developing world, has generated a bumper crop of people 
vulnerable to enslavement. When government corruption, 
particularly police corruption, removes the protection of the 
state, violence can be used to turn those vulnerable people 
into slaves.
    Now this is happening around the world, and once enslaved, 
the victims can be transported even to those countries where 
the rule of law is secure. The State Department, and I am sure 
you have heard again today from John Miller, estimates that up 
to 20,000 people are brought into the United States each year.
    In research that we are currently carrying out for the 
United Nations International Labor Organization, we estimate 
that up to 100,000 people are currently held in situations of 
forced labor in America. They may be forced to work as 
prostitutes, or in agriculture, in sweatshops, or as domestic 
servants.
    Moreover, slave-made products flow into our homes. Despite 
the clear prohibition on the importation of slave-made goods in 
the 1930 Smoot-Hawley Tariff legislation, which is still in 
force, a host of slave-made raw materials and products flow 
into America.
    A few years ago, we asked a slave newly freed on a cocoa 
farm in West Africa if he knew what happened to the cocoa he 
harvested. ``No,'' he said. Had he ever tasted chocolate? 
Again, he said, ``No.''
    So we asked him, what would you say to those millions of 
people who eat the chocolate made from the cocoa you have grown 
in slavery? ``Tell them,'' he said, ``when they eat chocolate, 
they are eating my flesh.''
    Now I am very happy to say that with the help of Congress, 
and the active and energetic participation of the chocolate 
industry, especially the chocolate industry of the United 
States, we are making enormous progress in the area of cocoa, 
and forced labor and slavery in cocoa. But this achievement 
stands alone. Slave-free trade is not yet a reality in the land 
of the free.
    So the picture is a serious one; millions of people 
enslaved, and both slaves and slave-made goods being bought and 
sold within the United States.
    There are, happily, several positive points. The 
Trafficking Victims Protection Act passed at the end of 2000 is 
now seen as a model for the world; and when it is amended this 
session, it will be an even stronger instrument against the 
trade in human beings.
    The Trafficking Office and USAID have made sizable grants 
having real impact in anti-slavery work abroad. The support by 
the American Government to the International Labor 
Organization, in their work to rehabilitate freed child slaves, 
is crucial to that effort.
    On the other hand, there are some serious problems. 
Research that we have carried out for the Department of Justice 
delivers one very clear message: that American law enforcement 
is under-resourced and uncoordinated in addressing the crime of 
slavery, forced labor, and the crime of human trafficking.
    We must adequately resource our legislation. We have to 
avoid the situation such as in India, a country with one of the 
best and most comprehensive laws against slavery on the books 
anywhere in the world, and many, many slaves waiting for the 
enforcement of that law.
    Confusion exists in other parts of the American Government, 
as well. We have had some very courageous statements by Members 
of Congress against slavery in parts of Africa.
    In the past, however, the State Department asserts that 
slavery has disappeared in some of those same countries. At 
times, it has seemed that a succession of American governments 
has chosen to recognize slavery according to their 
international political goals.
    Now I have to say, in the last 2 years, there has been a 
very distinct improvement in this. I just recently returned 
from Burma, and I have seen there the impact on the Government 
of the very clear statements by Secretary Powell about the 
crime of forced slavery in that country.
    I travel all over America talking about slavery, and I have 
talked about our Government's response to slavery with citizens 
across the country. I want to say very clearly what they want 
you to hear: what is morally wrong cannot be right. America 
must not play politics with slavery.
    If we are to imagine ourselves a bastion of freedom, our 
foreign policy must apply this principle in a way that is 
consistent and universal. Our belief in freedom is soiled and 
diminished if we condemn slavery in one country, and turn a 
blind eye to it in other. Happily, I think this is not fading 
as part of our foreign policy.
    At the same time, while the problem we confront is large, 
the obstacles are not insurmountable. Three key battles are 
already been won. We do not have to win the moral argument. 
Virtually everyone in the world agrees that slavery is wrong.
    Second, we do not have to win the economic argument. Ending 
slavery does not threaten the economic well being of any 
industry or any country. Third, we do not have to win the basic 
legal argument. Laws against slavery exist in virtually every 
country in the world.
    Because this is truly an international crime, our 
Government needs to press for more action within international 
agencies. This is not a problem of just the United States or 
any other single country. It is a global problem, and it needs 
a global cooperation.
    Eradicating slavery is a challenge shared by all humanity. 
We all know about the United Nations teams that searched for 
biological weapons in Iraq, and we know about international 
efforts to protect minorities in the Balkans.
    But where are the United Nations Teams to inspect and 
locate slavery? Where are the contingents that could protect 
freed slaves and help them toward reintegration in their own 
societies? Working together, we can verify, assist, and ensure 
that nations are doing all in their power to find, liberate, 
and rehabilitate enslaved people.
    Our own Government's law enforcement policy suggests other 
tools we could use to confront this problem of slavery 
worldwide. Our Department of Justice has located their anti-
slavery work very soundly on the 13th Amendment. They are 
extremely expert, and that expertise can be shared.
    The cooperation, funding, and training of foreign law 
enforcement could be extended to help end the police corruption 
that supports slavery. Assets confiscated from slaveholders and 
traffickers could help provide desperately needed resources for 
the rehabilitation of freed slaves.
    We must remember that liberation is only the first step to 
freedom. It must be followed by helping ex-slaves achieve a 
decent independent life.
    In many ways, our country still suffers from a botched 
emancipation. Shelby Foote, the historian of our civil war, put 
it this way, ``Slavery was the first great sin of this Nation. 
The second great sin was emancipation, or rather the way it was 
done. The Government told four million people, 'You are free, 
hit the road.' Three-quarters of them could not read or write. 
The tiniest fraction of them had any profession that they could 
enter.''
    We must not allow that mistake to be made again anywhere in 
the world, or our children and our grandchildren will still be 
dealing with the ugly legacy of slavery in the same way that we 
have to deal with it today in the United States, following our 
botched emancipation.
    Of course, there is not a single solution to slavery. 
Slavery is embedded in both local cultures and the global 
economy. But our Government has a marvelous collection of 
sticks and carrots that could be tailored to specific 
situations. We must coordinate the sticks and carrots that 
already exist in the hands of the State Department, the 
Department of Labor, and the Department of Homeland Security to 
a maximum effect.
    Many governments want to maintain ties and build a more 
positive image in the United States. We need to make it clear 
that a positive image is one that includes working actively to 
reduce slavery. As our Government brings its influence to bear, 
the rapidly growing public movement calling for action on 
slavery will support it.
    After 5,000 years, if there is coordinated and integrated 
leadership and effort, the eradication of slavery, I believe, 
is possible in the 21st century. Founded upon the primacy of 
individual liberty and given its role of leadership in the 
world, the United States could reasonably mobilize an 
international consensus to eradicate slavery.
    There is historical precedence for this. In the 19th 
century, the British Government led an international movement 
to abolish legal slavery. Britain deployed, between 1819 to 
1890, a sizable naval force devoted to the interdiction of 
slave ships. That fleet peaked in size at 36 ships and the 
operation to free slaves cost the lives of nearly 2,000 of Her 
Majesty's sailors and marines.
    Compared to that grim sacrifice, the human and financial 
cost of eradication today would be minuscule. Recall that while 
27 million is the largest number of slaves to ever live at one 
time, it is also the smallest proportion of the world 
population in slavery in human history.
    Note that the extremely low cost of slaves worldwide means 
that criminal slaveholders do not have large investments to 
defend. In our work with partner organizations in Northern 
India, we find the cost of freeing, rehabilitating, and 
reintegrating slaves average about $30 per family, and this 
does not involve paying criminals to set their slaves free.
    The American people and the American Government must ask 
this question: are we willing to live in a world with slaves? 
If not, we are obligated to take responsibility for things that 
connect us to slavery, even when those things are far away.
    Unless we work to understand the links that tie us to 
slavery and then take action to break those links, we are 
puppets, subject to forces we cannot or will not control. If we 
do not take action, we are just giving up and letting other 
people jerk the strings that tie us to slavery.
    Of course, there are many kinds of exploitation in the 
world, many kinds of injustice and violence to be concerned 
about. But slavery is exploitation, violence, and injustice, 
all rolled together in its most potent combination.
    If there is one fundamental violation of our humanity we 
cannot allow, it is slavery. If there is one basic truth that 
virtually every human being can agree on, it is that slavery 
must end. What good is our economic and political power if we 
cannot use it to free slaves? Indeed, if we cannot choose to 
stop slavery, how can we say that we are free? Thank you very 
much, sir.
    [The prepared statement of Mr. Bales follows:]

    [GRAPHIC] [TIFF OMITTED] T3282.066
    
    [GRAPHIC] [TIFF OMITTED] T3282.067
    
    [GRAPHIC] [TIFF OMITTED] T3282.068
    
    [GRAPHIC] [TIFF OMITTED] T3282.069
    
    Mr. Burton. Thank you, Mr. Bales.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. I appreciate having my 
time for questions. I do want to get back to a basic question. 
First off, I am not throwing stones, because I was not here a 
year ago or 2 years ago like Chris Smith and others who were 
very focused on this issue.
    But as a world community, I did find it interesting that I 
was having to defend why the President would take the U.N.'s 
time, and why in this time of great terrorism he would spend 
part of his speech talking about slavery. I found myself being 
almost amazed and offended by the questions I was getting from 
the news media.
    So first off, break down the $27 million as to, as best we 
know, what kinds of slavery, what is the most and so on. Who 
wants to start? Mr. Bales, do you want to start?
    Mr. Bales. The largest numbers of people in slavery are in 
South Asia, across North and West Africa, Central and South 
America, and Southeast Asia, as well. Probably the largest 
proportion of those are people in forms of debt bondage in 
South Asia, Nepal, Pakistan, and India. In part, that is simply 
because of the very large populations in those countries.
    Mr. Shays. And it is not necessarily prostitution, correct?
    Mr. Bales. No, sir, it is not necessarily prostitution.
    Mr. Shays. It can be working on the farms, working on the 
cocoa factories, working on the plantations, working in 
manufacturing, and so on.
    Mr. Bales. Across all of those economic sectors and many 
more; the only qualification would be to say that slaves are 
almost never used in any form of sophisticated industry plant.
    Mr. Shays. This does not have to be directed just to Mr. 
Bales since I guess you all know the answers to these 
questions, but I will continue with you, though. Does it tend 
to be mostly children?
    Mr. Bales. No, sir, it is a mixture of men, women, and 
children. We do not know what the precise proportion is.
    Mr. Shays. More women than men?
    Mr. Bales. I would suspect it is more women than men.
    Mr. Shays. If anybody disagrees with what is being told, I 
am going to assume that you all agree, unless you disagree, OK? 
Does anyone disagree with what Mr. Bales has said to me so far; 
mostly more women than men, all ages, not necessarily most in 
prostitution?
    Ms. Cohn. I agree with what Mr. Bales said. I would add 
only that we have seen, in some countries, whole villages 
bonded to a particular industry, say, the quarry industry.
    You will also see there that debts are inherited, so that 
if a child went into slavery for a $20 medical debt to get 
treatment for her mother, that she will be enslaved and then 
when she has children, her children will be enslaved when they 
are of working age; and then when she dies, that debt will be 
inherited, as well.
    Mr. Shays. At one point, and I do not know if you were the 
one who mentioned this, but the young woman, the child who 
lives with her mother while these sexual acts are taking place, 
and maybe that was you, Mr. Johnson, the child is just doing 
her thing or his thing, but in this case, it was a young girl.
    But you almost sounded like there was some ethics to it, 
that she did not become a prostitute at 13, but it was when she 
became 14. It was almost like, you mentioned at 14 she became a 
prostitute. Do not misunderstand it, but is there almost a 
gross code of ethics, even within this system?
    Mr. Johnson. I think in relation to that and those people 
who control this particular brothel, it was that age that 
children then were forced into prostitution.
    What was interesting though was that it was only until we 
started getting the children into school and the later of the 
group of children, when she turned 14 it was a pivotal moment, 
and she then was withdrawn from school because her mother was 
ill. Poverty is one of the major issues, too. It is the cycle 
that they are unable to get out of this situation.
    Mr. Shays. So the children are allowed to go to school 
before they become prostitutes?
    Mr. Johnson. Well, the intervention that we had made was 
that we had started working with the children, in trying to 
enable them to get to school.
    Once we realized that this young girl was being forced into 
prostitution, due to the poverty of her mother and she had no 
choice, there was much pressure brought to bear on this young 
girl.
    But the other children said, we do not want to live here 
anymore, which was what prompted us to then start the cycle. 
Then the girls were able to be removed at a distance far enough 
beyond the control of the pimps, but close enough that they 
could maintain contact with their mothers; and no girls have 
returned.
    Mr. Shays. Let me ask this question. Why does the U.N. not 
make this a bigger issue? I mean, this seems to me, as I said 
to someone in the press, like an issue no one should be able to 
disagree with. In effect, I said, this was really an olive 
branch to the U.N. to say, hey, let us find some things that we 
can all agree on.
    So were you puzzled by the reaction? First, were you happy 
that the President spoke out? Did you feel like there was 
sufficient congratulations on the part of those in our 
community who may not like the President for other reasons? Did 
you find the reaction of the U.N. satisfactory? Give me your 
reaction, all of you. Dr. Mattar, you may start.
    Mr. Mattar. I think what we are talking about here is a new 
international consensus, as to what we consider trafficking in 
persons. Let me go back to 1949.
    Mr. Shays. I do not know if you are answering my question. 
You may be, and I just may not understand it. First, I need to 
know, did the U.N. respond favorably, or are you saying to me 
they did not, but----
    Mr. Mattar. No, I think the United Nations, by creating 
that international consensus as to what we consider trafficking 
in the protocol to prevent trafficking in persons, I think it 
created an international consensus. I think countries have to 
act now to do something about that.
    I just want to say that this month, now we had 40 
deratifications of the countries that defied the protocol. That 
creates some kind of international consensus as to what we 
consider trafficking in persons. This did not exist prior to 
the 2000 protocol.
    Mr. Shays. You are helping me understand that. Maybe it is 
just our media. But was there great admiration for the United 
States? You know, when I think, why do they hate us, which is a 
question I do not think is a fair question; I think why does 
the world have contempt for us? In some cases, the contempt is 
because we are doing some good things.
    Did the rest of the world say, well, this is the reason why 
I want to like the United States; or did they say, the United 
States is butting into our affairs, bug off? I mean, I am just 
trying to understand.
    Mr. Mattar. I think countries welcome every time the United 
States is promoting human rights all over the world. That is 
how I see the role of the United States in promoting combatting 
trafficking in persons.
    Mr. Shays. Just a few more minutes, Mr. Chairman; Mr. 
Bales?
    Mr. Bales. You were asking about, how did the United 
Nations respond. I was in a room with representatives of six 
United Nations agencies when the news came that the President 
had made that statement in New York. I was in Southeast Asia at 
the time. They were overjoyed and, of course, the United 
Nations is no monolithic organization any more than any great 
governmental organization.
    At the grassroots, the many agencies that have to confront 
human trafficking, enslavement, debt bondage, and so forth, in 
the United Nations; they were very pleased that our President 
had said those things.
    Mr. Shays. Why did they keep it such a secret?
    Mr. Bales. Those are the people at the grassroots. In the 
same way that it is hard to get, you know, Lee Iacocca to have 
exactly the same message as the guy on the shop floor; it is 
hard for me to understand necessarily why that is the case, but 
it filters up and it filters down.
    Mr. Shays. Dr. Raymond.
    Ms. Raymond. Yes, our reaction also was that people within 
the U.N. system were very pleased, as were we, as were many 
other NGO's.
    But there was also a very negative reaction in the context 
of the venue that the President chose to express it. The 
negative reaction was basically that he was trying to soften 
the problem in Iraq and the issue of terrorism by basically 
launching that venue to discuss trafficking within that 
location.
    Mr. Shays. Was not this venue in the address of the 
President of the United States to the U.N. totally confined? 
Was he restricted to just talking about terrorism?
    I mean, that may have been the expectation; but good grief, 
he was a world leader, coming before the world community, 
saying we disagree here. So we disagree; but can we agree here? 
You have answered the question to me, but I have contempt for 
the reaction.
    Ms. Raymond. I do not disagree with what you are saying, 
Mr. Shays. But I am telling you what we heard.
    Mr. Shays. Thank you, I was shooting the messenger. I am 
sorry, Dr. Raymond.
    Ms. Raymond. But could I go back to something else that you 
asked about; what Mr. Bales had said earlier about the numbers 
in slavery and whether or not those numbers are numerically 
more women and children than men, for example.
    I would like to just take up this whole question of labor 
trafficking versus sex trafficking, which I did in my longer 
preparation and did not get a chance to say this in my 
restricted remarks.
    Obviously, these are both gross violations of human rights. 
But I think that unfortunately, what we are seeing now is that 
a number of NGO's in the human rights community are insisting 
that labor trafficking is the real problem, and that sex 
trafficking is comparatively minor; most of it being rather 
harmless prostitution.
    Now clearly, being trafficked into exploited farm work or 
domestic labor or other forms of bonded labor is incompatible 
with human rights, and it is harmful to those who are subjected 
to it.
    But I what think we have to ask here is the harm really as 
severe as the harm to women and girls, who are trafficked into 
prostitution in brothels and repeatedly subjected to intimate 
violation; to rape, basically?
    Mr. Shays. Right.
    Ms. Raymond. I think also ignored is the fact that many of 
the women trafficked for bonded labor, whether you are talking 
about domestic labor or whether you are talking about farm work 
or whatever else one is talking about, their exploitation 
concludes with they are being sexually exploited, as well, and 
is often turned into informal systems of prostitution. So I 
think it is very important to emphasize that.
    Mr. Shays. Thank you; could I just have Mr. Johnson 
respond, since he is a constituent, maybe? Are you from Save 
the Children in Westport, or are you somewhere else?
    Mr. Johnson. No, actually, I represent Save the Children of 
the United Nations, so I was around in the corridors that day. 
There were two questions that you asked, and maybe I can answer 
first the international question.
    Mr. Shays. The records show, though, that Save the Children 
is corporately headquartered in the Fourth District. 
[Laughter.]
    Mr. Johnson. Thank you; the international perspective, I 
think it is a big issue. To give you one example, one of the 
major films in Sweden last year was about the trafficking of a 
young girl, which challenged Sweden's notions of how it deals 
with this issue.
    But it is getting on the headlines in other media outlets. 
For example, there were two instances. The Child Soldiers 
Campaign, which was very hard, looked at children being bonded 
in conflict. The other was the Yokohama, the second world 
conference on the commercial sexual exploitation of children.
    So while I agree with you, we have still got a long way to 
go. But I think that there are many initiatives, and certainly, 
what the U.S. Government is doing is a great step forward and 
is part of a wider world movement to do something about it.
    So while I think sometimes the coverage is not what we 
would hope for, I think that there are very good signs for us 
taking the next big step. Certainly, what Congress is looking 
at right now will be part of that big momentum forward.
    Mr. Shays. I am going to just quickly respond to Dr. 
Raymond, and then thank you, Mr. Chairman. You have been very 
kind.
    I do want to agree with one point. I think that the 
President could have introduced it and said, I know the focus 
is on this. But he could have then said, while we may disagree 
here, could we also find ways that we can find common ground, 
such as--and I think there are ways that just the tone of his 
presentation might have taken some of that criticism that you 
were saying that some people had.
    This is a wonderful hearing to have, Mr. Chairman; thank 
you for doing this.
    Mr. Burton. We might collectively send a letter to the 
administration suggesting some things they might incorporate 
into the next human rights speech he makes before the U.N. That 
might he helpful.
    Mr. Shays. I would love to be part of that.
    Mr. Burton. Mr. Smith, real quickly?
    Mr. Smith. Thank you very much; very quickly, as a matter 
of fact, we have a letter going over to the President to thank 
him for the job that he did there.
    I think it was just the tip of the iceberg. It is 
unfortunate those who reacted negatively did not realize the 
comprehensiveness of what this administration is doing.
    You know, John Miller is a major part of that. He spoke 
earlier and is still here. But I really do think that our 
country has gotten it right and we are in the process, 
hopefully, of making it better.
    Also, just a thought, you know, we talk about the United 
Nations. It has its strengths and weaknesses. But one of it is, 
it is all a matter of priorities, it seems to me. The repleader 
system exists, but in order for our repleader to have access, 
he or she has to have the full compliance of the potentially 
offending country. At any step along that investigation, 
certain barriers can be put in place to bar their ability to 
find out what really is going on. But obviously, we have to 
keep pushing.
    Then there is the U.N. Commission on Human Rights, which 
has a lot of farcical aspects to it. It can do some good. There 
is no doubt about it. But it also has the terrible situation 
where you have rogue nations like Sudan and others.
    Talk about slavery; the first hearing I ever had on slavery 
was on the slavery that did exist and continues to exist. That 
was almost 10 years ago. People did not believe it. They acted 
as if we were making it up.
    We talked about Mauritania. We talked about Sudan, and even 
one of our former members of the International Relations 
Committee, Congressman Dimally, was there as the Government 
representative, defending Mauritania; which I found, and said 
so during the hearing, to be offensive.
    So I think very often, wittingly or unwittingly, some 
people are going to put themselves on the line to say, this is 
not as bad as you say it is. That just completely thwarts the 
human rights message.
    As human rights warriors, you work goes under-heralded, 
unfocused upon. The people from America would understand this. 
But the Valley Forge solders who were out there in the cold and 
just surviving and overcoming; hopefully, we can give you some 
implication and work side-by-side with you.
    Let me also say, I think a big part of the problem is in 
prosecutorial discretion here in the United States. Post-
September 11, despite the best efforts on the part of our U.S. 
attorneys, they have become pre-occupied, as has the FBI, with 
doing things other than trafficking. But where a U.S. attorney 
has a heart and a mind and assets, he or she can really do a 
job.
    In my own state, and I would say to all of my colleagues, 
ask your U.S. attorneys, what are you doing on trafficking? I 
know the Attorney General, several times, has admonished his 
U.S. attorneys to do more. But they still have that 
prosecutorial discretion to pick and choose.
    My U.S. attorney, for example, Chis Christy, went after 
some Russian traffickers, liberated 30 Russian women, and he is 
going to get, I think, a major sentencing of those who have 
done it, who trafficked. He recently got one from some Mexican 
women, and the traffickers, three of them, got 17 to 18 years 
for what they did.
    So all of us, I think, could do more to say to the FBI and 
especially to Justice, this is a priority for us, and it 
certainly is for you. You the heros and the warriors, and we 
thank you so much. I join my colleagues in thanking you.
    [Applause.]
    Mr. Burton. Thank you; we really appreciate your hard work. 
You do not get many accolades, especially from Congressmen. So 
I want you to know that even though there are a few of us up 
here, we represent a lot more than are in this meeting today.
    Because of your being here today, Chris and I, and we will 
get Mr. Shays as well, the two Chrises and Dan, we will write 
some letters to some of the law enforcement people to start the 
ball rolling to maybe go into some of the problems that we have 
here in the United States regarding slavery and prostitution, 
which hopefully you will be proud of when we get some results.
    In any event, thank you for your patience. I know it has 
been a long day. Thank you very much for being here. I want to 
thank my former colleague for being here and all of the hard 
work you are doing; thanks an awful lot. We stand adjourned.
    [Whereupon, at 4:47 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3282.070

[GRAPHIC] [TIFF OMITTED] T3282.071

[GRAPHIC] [TIFF OMITTED] T3282.072

[GRAPHIC] [TIFF OMITTED] T3282.073

[GRAPHIC] [TIFF OMITTED] T3282.074

[GRAPHIC] [TIFF OMITTED] T3282.075

[GRAPHIC] [TIFF OMITTED] T3282.076

[GRAPHIC] [TIFF OMITTED] T3282.077

[GRAPHIC] [TIFF OMITTED] T3282.078

[GRAPHIC] [TIFF OMITTED] T3282.079

[GRAPHIC] [TIFF OMITTED] T3282.080

[GRAPHIC] [TIFF OMITTED] T3282.081

[GRAPHIC] [TIFF OMITTED] T3282.082

[GRAPHIC] [TIFF OMITTED] T3282.083

[GRAPHIC] [TIFF OMITTED] T3282.084

[GRAPHIC] [TIFF OMITTED] T3282.085

[GRAPHIC] [TIFF OMITTED] T3282.086

[GRAPHIC] [TIFF OMITTED] T3282.087

[GRAPHIC] [TIFF OMITTED] T3282.088

[GRAPHIC] [TIFF OMITTED] T3282.089

[GRAPHIC] [TIFF OMITTED] T3282.090

[GRAPHIC] [TIFF OMITTED] T3282.091

[GRAPHIC] [TIFF OMITTED] T3282.092

[GRAPHIC] [TIFF OMITTED] T3282.093

[GRAPHIC] [TIFF OMITTED] T3282.094

[GRAPHIC] [TIFF OMITTED] T3282.095

[GRAPHIC] [TIFF OMITTED] T3282.096

[GRAPHIC] [TIFF OMITTED] T3282.097

[GRAPHIC] [TIFF OMITTED] T3282.098

[GRAPHIC] [TIFF OMITTED] T3282.099

[GRAPHIC] [TIFF OMITTED] T3282.100

[GRAPHIC] [TIFF OMITTED] T3282.101

[GRAPHIC] [TIFF OMITTED] T3282.102

[GRAPHIC] [TIFF OMITTED] T3282.103

[GRAPHIC] [TIFF OMITTED] T3282.104

[GRAPHIC] [TIFF OMITTED] T3282.105

[GRAPHIC] [TIFF OMITTED] T3282.106

[GRAPHIC] [TIFF OMITTED] T3282.107

[GRAPHIC] [TIFF OMITTED] T3282.108

[GRAPHIC] [TIFF OMITTED] T3282.109

[GRAPHIC] [TIFF OMITTED] T3282.110

[GRAPHIC] [TIFF OMITTED] T3282.111

[GRAPHIC] [TIFF OMITTED] T3282.112

[GRAPHIC] [TIFF OMITTED] T3282.113

[GRAPHIC] [TIFF OMITTED] T3282.114

[GRAPHIC] [TIFF OMITTED] T3282.115

[GRAPHIC] [TIFF OMITTED] T3282.116

[GRAPHIC] [TIFF OMITTED] T3282.117

[GRAPHIC] [TIFF OMITTED] T3282.118

[GRAPHIC] [TIFF OMITTED] T3282.119


</pre></body></html>
